<html>
<title> - [H.A.S.C. No. 111-99]AFGHANISTAN: GETTING THE STRATEGY RIGHT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-99]

                AFGHANISTAN: GETTING THE STRATEGY RIGHT

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 14, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE
56-004                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, October 14, 2009, Afghanistan: Getting the Strategy 
  Right..........................................................     1

Appendix:

Wednesday, October 14, 2009......................................    49
                              ----------                              

                      WEDNESDAY, OCTOBER 14, 2009
                AFGHANISTAN: GETTING THE STRATEGY RIGHT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Biddle, Dr. Stephen D., Senior Fellow for Defense Policy, Council 
  on Foreign Relations...........................................     8
Keane, Gen. Jack, USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     4
Pillar, Dr. Paul R., Director of Graduate Studies, Security 
  Studies Program, Edmund A. Walsh School of Foreign Service, 
  Georgetown University..........................................    12

                                APPENDIX

Prepared Statements:

    Biddle, Dr. Stephen D........................................    64
    Keane, Gen. Jack.............................................    53
    Pillar, Dr. Paul R...........................................    82

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Kline....................................................    95
 
                AFGHANISTAN: GETTING THE STRATEGY RIGHT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 14, 2009.
    The committee met, pursuant to call, at 10:05 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Today the House Armed Services Committee meets to receive 
testimony from outside experts on ``Afghanistan: Getting the 
Strategy Right.''
    Our witnesses today are General Jack Keane, former Vice 
Chief of Staff of the United States Army.
    We welcome you back, General.
    Dr. Stephen Biddle, a noted expert on the strategy with the 
Council on Foreign Relations, who also served on General 
McChrystal's assessment.
    And Dr. Paul Pillar of Georgetown University, who served as 
a National Intelligence Officer for the Near East and South 
Asia until 2005.
    Starting in 2006, I began referring to Afghanistan as the 
forgotten war. We allowed ourselves to be distracted by a war 
of choice from the war I think that the President was right to 
call a war of necessity.
    So I was greatly encouraged by the serious approach 
President Obama took in reviewing the conflict earlier this 
year. On March 27th, President Obama announced a new strategy 
for Afghanistan and Pakistan, and in my opinion, it wasn't just 
a new strategy; it was our first strategy. The President 
underlined his serious approach by sending 21,000 additional 
troops and a new leadership to Kabul.
    General McChrystal is simply the best we have got. And we 
are very fortunate to have him there. General McChrystal's 
recent assessment presents a serious view of the situation in 
Afghanistan and the challenges that we face. He also presents 
one possible way forward, a fully resourced population-centric 
counterinsurgency (COIN) campaign that would protect the 
population, build the Afghan security forces and work to 
improve the Afghan government.
    As my colleagues know, I am a strong supporter of General 
McChrystal's approach. Others disagree. We can find serious 
people who advise that we risk getting bogged down in an 
unwinnable war and that focusing on capturing and killing al 
Qa'ida leadership is the right approach. This suggests that our 
primary mission should be to train and equip more Afghan 
security forces, that we should not add U.S. troops to the 
68,000 already there or on the way.
    The President, again, thinks it is a momentous decision, 
charting a path forward in Afghanistan. He has undertaken a 
serious review of the strategy in Afghanistan, will make a 
decision as the Commander in Chief in the near future. I 
believe he feels the same sense of urgency we all feel and hope 
we can all support his desire to make sure that we get 
Afghanistan right.
    Congress, however, will be ultimately involved in the 
decision to help us work through some of these issues. We are 
here today to hear three experts who will help us highlight the 
questions about each path forward and think through what is 
most likely to work.
    And I thank each of them for their appearance here, and we 
appreciate it very much.
    Now I turn to my good friend, the ranking member, Buck 
McKeon, for comments he might care to make.
    Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you for calling this hearing today.
    Welcome to our witnesses.
    General Keane, it is great to have you back before the 
committee.
    Mr. Chairman, I commend you for holding this hearing.
    In early September, General McChrystal provided the 
Secretary of Defense's 60-day assessment on the security 
situation in Afghanistan. With the release of the McChrystal 
assessment and the President's ensuing strategy review, our 
country finds itself in a debate over our future commitment to 
the conflict. The debate is largely taking place in the media, 
with the Congress and the White House as largely passive 
players. That is why today's hearing is so important.
    A true national debate on the war cannot be packaged in 
made-for-TV 2-minute sound bites and 700-word op-ed columns 
crammed with rhetoric. But Congress is where national policy 
debates belong, in the Armed Services Committee as Congress's 
designated venue for addressing matters of war.
    We must recall it is the President himself who called for 
public discussion of the war in Afghanistan. In the absence of 
the Commander in Chief leading the debate, I think the best way 
this Congress and the American people can evaluate our next 
steps in Afghanistan is to have General McChrystal testify.
    Chairman Skelton and I sent letters to Secretary Gates 
requesting General McChrystal's testimony. We are still waiting 
for an answer.
    So where are we in the debate? After nine months in office, 
President Obama's Afghanistan policy is in the same place where 
he found it in January: in a state of drift and lacking 
direction.
    Six months after outlining a strategy which calls for 
executing and resourcing an integrated civilian-military 
counterinsurgency, COIN, the President has once again called 
for a review of our strategy and now questions the underlying 
assumptions of that strategy.
    The current strategy review has put into question the 
nature of the threat we face in Afghanistan and whether we have 
the right strategy to defeat the threat.
    While the question of whether to send additional forces 
into Afghanistan may seem to be a detail of a larger debate, I 
think it is the correct place to begin the discussion. The 
President's response to General McChrystal's request for forces 
will reveal how he views the threat and what strategy he 
intends to pursue in Afghanistan.
    As we have recently learned, words on a White House white 
paper are easily erased. It is the forces you put in the field 
that demonstrate the true nature of our commitment to our 
military, our country, the citizens of Afghanistan, and our 
enemies.
    I am in agreement with Chairman Skelton on what must be 
done in Afghanistan. I believe that to prevent al Qa'ida from 
returning to Afghanistan, we need to leave that country in a 
stable position. I think the President's March strategy had it 
right; a fully resourced counterinsurgency strategy is the best 
way to ensure that the Taliban will not run a shadow government 
out of Kandahar and play host to al Qa'ida. A fully resourced 
COIN mission has a proven track record of defeating 
insurgencies, and it is General McChrystal's lowest-risk 
option.
    Presently we find ourselves in a stalemate in Afghanistan, 
and the Taliban has the momentum. As General McChrystal stated 
in his assessment, failure to gain the initiative and reverse 
insurgent momentum in the near term, the next 12 months, risks 
an outcome where defeating the insurgency is no longer 
possible. In other words, time is of the essence. And he wrote 
those words over a month ago.
    Our forces need a strategy that everyone in the chain of 
command supports in word and in deed. Given the urgency of the 
situation, I have a number of concerns about how the debate in 
Washington will affect the war in Afghanistan.
    First, I am concerned about the continued drift of our 
Afghanistan strategy. It is unfair to our forces in theater to 
fight a war while the strategy remains in limbo. Last week, the 
President told Members of Congress that his decision will be 
timely. My hope and expectation is that the President will make 
a decision on resources in the coming week and stick with it. 
We cannot win if we conduct quarterly strategy changes. To be 
sure, nips and tucks are appropriate, but wholesale 
reconstructive surgery is a recipe for disaster.
    My second concern is the looming intelligence hook. 
Proponents of a minimally resourced strategy, of which there 
are few, if any, who are military experts, question the nexus 
between the Taliban and al Qa'ida. If the intent is to disrupt, 
dismantle, and defeat al Qa'ida, goes the argument, then 
defeating the Taliban is less of a concern. To date, I have not 
seen any intelligence that disaggregates al Qa'ida from the 
Taliban. I am worried that we are going to see a new analysis 
that justifies a more limited war strategy on the basis that we 
can now tolerate Mullah Omar's Taliban in Afghanistan. We all 
know the perils of driving intelligence analysis to fit 
preferred policy outcomes.
    My last concern is that the debate is muddying the clear 
national security interest at stake in this war. If the 
conflict in Afghanistan is not worth the cost, then what 
conflict is worthy? In my view, Afghanistan is ground zero when 
it comes to the risk of a world where al Qa'ida, safe havens, 
narcotraffickers and nuclear weapons connect.
    If there is a venue for a military that has been reoriented 
to fight irregular forces, then Afghanistan is the place. Our 
military has spent eight years refining how to execute this 
fight. Now that expertise risks being shelved. In my view, if 
the President departs from the March strategy, he will be 
rejecting key assumptions about the threats we face and 
strategies we need to prevent another 9/11.
    A half-measure in Afghanistan is tantamount to a doctrinal 
shift away from all the lessons learned since al Qa'ida 
attacked our homeland over eight years ago. This will endanger 
our homeland and put our forces at risk. I look forward to a 
candid discussion on these important issues. Thank you again 
for being here this morning.
    The Chairman. I thank the gentleman.
    And now to the witnesses.
    General Jack Keane.
    Thank you, each of you, for being with us today. General 
Keane.

STATEMENT OF GEN. JACK KEANE, USA (RET.), FORMER VICE CHIEF OF 
                        STAFF, U.S. ARMY

    General Keane. Good morning, Mr. Chairman, Ranking Minority 
and Members of the Committee, thank you for allowing me once 
again to testify before this distinguished committee and also I 
am happy to join Dr. Steve Biddle and Dr. Pillar here this 
morning. Let me say up front, while there are many options for 
the way ahead in Afghanistan, there is a single choice which 
offers the United States and the Afghan people the opportunity 
to succeed against the Taliban insurgency and thereby stabilize 
the country. That choice is General McChrystal's and General 
Petraeus' counterinsurgency strategy with the appropriate level 
of military forces, civilian personnel, and financial 
resources.
    To understand that statement, we must know what has 
happened to Afghanistan since the invasion of 2001 and why this 
is the only remaining viable choice. It is a fact that 
Afghanistan, beginning in 2002 and increasingly so in 2003, 
became a secondary priority in the war in Iraq. Indeed, it 
remained as such until this year, 2009, when only now we are 
beginning to shift our priority effort from Iraq to 
Afghanistan. As such, as a secondary effort, despite the 
addition of North Atlantic Treaty Organization (NATO) forces 
and resources, Afghanistan has always been operating at the 
margin and, in most of those years, below what was required in 
forces and resources.
    Not surprising, the Taliban advantaged this vulnerability 
and not only re-emerged but have been able to gain the 
initiative to the point the momentum is on their side, 
particularly in the south and east. Add to that a weak, 
ineffectual central government plagued by corruption, election 
fraud and legitimacy issues, Afghanistan has now become a major 
challenge.
    It is appropriate to ask, is Afghanistan worth the 
continued sacrifice of U.S. lives and treasures? What should be 
our strategic goal? Is an adjustment in goals and resources 
appropriate?
    Let me briefly answer those questions by stating our 
strategic goal in Afghanistan should be a secure, stable 
Afghanistan without an al Qa'ida sanctuary. And, yes, it is 
worth the continued sacrifice to achieve that goal. Not only 
because a stable Afghanistan is in our national interest, but 
its stability is inextricably linked to the stability in 
Pakistan. The al Qa'ida center of gravity is not Afghanistan; 
it is Pakistan. A loss of Afghanistan is a win for the Taliban 
and the al Qa'ida in Pakistan with potential serious 
consequences for Pakistan.
    While there are few al Qa'ida in Afghanistan, it is clear 
they supported one another going back to pre-9/11 when the 
Taliban would not give up the al Qa'ida when the United States 
allied attack was imminent. Moreover, the Taliban is very 
current other than improvised explosive device (IED) technology 
and U.S. tactics. They evolved through the years from, first, 
in Iraq, into Afghanistan.
    It is not about how many al Qa'ida fighters are in 
Afghanistan, but how the al Qa'ida network enables, trains and 
supports the Taliban. We cannot conveniently separate the two. 
If we lose in Afghanistan, the al Qa'ida will be right behind 
the Taliban as they take over. Make no mistake, Pakistan is a 
far more consequential country strategically, mostly because of 
nuclear weapons, but also because of the size and influence of 
the country. Therefore, it is appropriate to link the stability 
of both of these countries together as U.S. strategic goals and 
national interests.
    One of our major challenges with the political and military 
leadership in Afghanistan and Pakistan is their skepticism 
surrounding the United States' commitment to their countries' 
stability and our resolve to stay the course. Given our track 
record in both countries, these doubts are well-founded, which 
clearly affect their attitudes and behavior.
    Many leaders in Afghanistan are unwilling to commit to the 
government of Afghanistan because they are uncertain about the 
U.S. commitment. As we deliberate on the way ahead, this issue 
must be kept in mind. It is difficult to forecast a stable 
Southern Asia without the United States directly assisting in 
defeating the radical Islamists who are threatening that 
stability. Our resolve should not be limited to staying, but it 
should be defeating the Taliban and al Qa'ida.
    Now, how can we do that? We must adopt a civil-military 
strategy with counterinsurgency as the centerpiece. In 
insurgencies, the center of gravity is not the enemy, as it is 
in conventional wars; it is the people. These are fundamentally 
people's wars; and as such, securing, protecting and freeing 
the people from intimidation, coercion and terror becomes job 
one. Our operations take on a different character and, in many 
cases, are largely non-kinetic because our focus is to free the 
people from insurgent malice and influence.
    Of course, we must still kill and capture insurgents and 
hold their horrific behavior liable, and we do. It is critical 
that tribal insurgent leaders feel the burden of the loss of 
their tribal members and sense our commitment to see it through 
to the end.
    War is always about breaking the will of your opponent. The 
ultimate solution in Afghanistan, as it is in Iraq, is for the 
Afghanistan security forces to provide a secure and stable 
environment. The problem we have in front of us, similar to 
2006 in Iraq, is that the security situation has deteriorated 
well beyond the Afghan National Security Forces' (ANSF) 
capability to cope with it, even with U.S. and NATO force 
assistance. The Afghan National Security Forces are currently 
projected to grow to about 234,000 by 2010 and need to grow to 
about 400,000, which will take to 2013 or at best 2012.
    Given the new counterinsurgency strategy and current force 
levels, what can we do to turn around the deteriorating 
situation in Afghanistan in the meantime? How do we mitigate 
the two to three years as we wait for the appropriate growth of 
the Afghan National Security Forces?
    The only remaining answer to stop the bleeding and turn 
around the situation is the introduction of U.S. troops. It is 
not necessary to apply the counterinsurgency strategy to 
Afghanistan at large. The priority and focus is south and east. 
And we can achieve the appropriate counterinsurgency force 
levels combining NATO and Afghan forces.
    I will leave to General McChrystal as to what the 
appropriate number is because only he and his staff have the 
fidelity to make that kind of analysis. What I am saying is we 
need multiple brigades of U.S. combat troops, U.S. support 
troops and trainers for the Afghan National Security Forces. It 
seems appropriate that while the NATO countries are unwilling 
to provide additional combat forces, they should be pressured 
to provide additional trainers and financial resources.
    As the Afghan National Security Forces conduct side-by-side 
operations with U.S. NATO forces, as a matter of routine, 
similar to what we did in Iraq, their proficiency increases 
exponentially. One of the major lessons learned from Iraq, 
after three years with the wrong strategy and the favorable 
turnaround in 2007 and 2008, is that security is a necessary 
precondition for political progress and economic development. 
This applies directly to Afghanistan.
    The military as part of the counterinsurgency strategy was 
key to assisting in executing government reform, attacking 
corruption and maligned behavior in Iraq, and it can have the 
same impact in Afghanistan. We cannot just execute the status 
quo on security or do more than the status quo but less than 
what is required and expect to make political governance and 
reconstruction progress without the appropriate level of 
security. It will not happen. We will fail.
    What about other options? Why not a counterterrorism 
strategy, given the al Qa'ida are in Pakistan and not 
Afghanistan? And why not a diplomatic effort to seek political 
accommodation with the Taliban in Afghanistan? A 
counterterrorism strategy is essentially killing and capturing 
insurgent and terrorist leaders. To do so, we rely primarily on 
technology solutions, drones, missiles and precision bombs. 
This strategy is helpful in Pakistan and Afghanistan, as it was 
in Iraq. But it is not decisive. Nor has it been decisive for 
the Israelis in the many years of their struggle.
    The reality is leaders are replaced. A setback to be sure 
for a particularly influential leader, but a movement based on 
ideas and determination is not defeated by killing leaders. It 
is only defeated by isolating the movement from its source of 
strength, the dependency on the people. Give the people a 
better alternative, and the insurgency is isolated. When the 
insurgents are isolated, they are very vulnerable to being 
killed and captured. Moreover, despite a very aggressive and 
successful counterterrorism operation in Iraq from 2003 to 
2007, some almost four years, we were failing, and we nearly 
lost the country.
    Similarly we have been using that counterterrorism strategy 
in Afghanistan for many years, and the situation has simply 
gotten worse. Are counterterrorism operations valuable? Yes, 
definitely. But they must complement a fully integrated civil-
military counterinsurgency strategy.
    Why not make a political accommodation with the Taliban in 
exchange for stopping the violence and possibly ensuring that 
no al Qa'ida sanctuary returns to Afghanistan?
    This is the height of folly and naivety. The Taliban are 
winning from their perspective; believe that the United States 
will be leaving; and they will be back in control of 
Afghanistan. Why should they settle for less now when they can 
get it all later? In their minds, time is on their side, those 
leaders have been approached before, and there is no deal to be 
had.
    And for the life of me, what part of Afghanistan do we 
surrender to the Taliban, forcing the Afghan people, whom we 
have supported for eight years, to live under the Taliban's 
sadistic rule?
    Let me be clear, we can reach out to the lower level 
Taliban leaders who are reconcilable, particularly those who 
are motivated by being on the winning side. This can occur 
quite substantially when we turn around the deteriorating 
situation and begin to gain some momentum. Certainly General 
McChrystal understands this and has General Graeme Lamb from 
the United Kingdom (U.K.) assigned as his deputy to pursue and 
create these opportunities, who did the very same thing very 
successfully in Iraq for General Petraeus.
    In conclusion, what is the way ahead? Not since 2001, when 
the decision to attack Afghanistan was made, have we had a more 
critical opportunity to make a decisive decision to stabilize 
Afghanistan. We can succeed. We can turn this around in two to 
three years.
    Caution, if there is a sense of a lack of a U.S. 
commitment, NATO and Pakistan will hedge and pull back. Many 
tribal leaders and others in Afghanistan will do the same. And 
it will undermine the very objectives we are trying to achieve.
    Next, put in play a counterinsurgency strategy with the 
appropriate military, civilian and financial resources.
    A caution, again, do not be tempted to do the 
counterinsurgency strategy with less than the required troops 
because you will be doing more in other areas, such as an 
enhanced counterterrorism operation, aggressive governance to 
stomp out corruption, surging against poppy production and 
narco trafficking, enabling reconciliation and other worthy 
focus areas. Trying to do more with less will fail and fail 
miserably.
    Next, get tough with Hamid Karzai about his known 
corruption, election fraud, and ineffectual government. Be 
specific and hold his government accountable. We should not be 
bashful. Our national interests are at stake and our sacrifice 
and promised future commitment is real and gives us the premise 
for tough mindedness. We need a political strategy to 
complement the counterinsurgency strategy by helping to 
establish a legitimate sovereign state of Afghanistan.
    Major nation-building should not be our objective, but it 
is appropriate to establish the rule of law with a workable 
judiciary; improve the central government's effectiveness; 
strengthen governance at the local level, particularly at the 
district and provincial level; and assist with economic 
development.
    Re-engage countries in the region in the stability of 
Afghanistan and Pakistan in particular; and in general, the 
radical Islamist threat to that stability. Their assistance is 
vital.
    And make a strong commitment to the future stability of 
Afghanistan, which is enduring, but it is not open-ended in 
terms of our military forces. Our forces will begin to leave as 
the Afghan national security forces grow in size and 
capability, similar to what we have done in Iraq.
    And we are blessed with some of the very best general 
officers we have had in our history to execute our strategy, in 
McChrystal, in Lamb, in Rodriguez and Petraeus, along with 
Ambassador Eikenberry. We should rely heavily on their judgment 
and experience.
    And finally, there are no guarantees of success. But our 
troops who are sacrificing the most deserve the best winning 
hand possible. Their competence, extraordinary sacrifice, 
unprecedented resilience, their dogged determination to succeed 
may in fact be the finest chapter in the United States military 
history. Never before have we asked so much of so few for so 
long.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 53.]
    The Chairman. General, thank you very much.
    Dr. Stephen Biddle.

 STATEMENT OF DR. STEPHEN D. BIDDLE, SENIOR FELLOW FOR DEFENSE 
              POLICY, COUNCIL ON FOREIGN RELATIONS

    Dr. Biddle. I would like to start by thanking the committee 
for this chance to speak with you on an issue of obvious 
national importance.
    The Chairman. Get your microphone a little closer.
    Dr. Biddle. I would also like to emphasize, I am speaking 
for myself and not anybody in the headquarters in Kabul or 
indeed anybody in the government.
    Afghanistan is a big collection of important issues--there 
are lots of different things we could talk about this morning, 
and then I am sure we will in question and answer (Q&A). I want 
focus, however, on what is arguably the most fundamental 
underlying question: Is the war worth waging and at what cost?
    And it seems to me that the answer to that question in the 
short form is that the case for waging war in Afghanistan is a 
close call in the analytical merits. We do have important 
interests at stake in Afghanistan. But they are not unlimited, 
and they are largely indirect. It is possible for us to succeed 
in Afghanistan, but it can't be guaranteed, and doing so at any 
reasonable probability will be an expensive undertaking.
    In a situation in which, on the analytic merits, we have a 
close call with both benefits and costs on either side of the 
ledger, I think what the decision about waging war in 
Afghanistan boils down to is, at the end of the day, not an 
analytically resolvable, single, one right and true answer on 
the substantive merits, but rather as a judgment call on how 
much risk we are willing to accept and how much cost we are 
willing to pay in order to reduce the risk.
    Now, that is a condition that is general to defense 
policymaking, but in situations like Afghanistan, where I think 
the analytic merits are a close call, it presents itself in an 
unusually salient way. For me, that judgment comes down as 
being a better case for paying the costs associated with 
pursuing a vigorous counterinsurgency campaign in Afghanistan 
as a means of reducing a potentially serious downstream 
consequence to the United States if a failure in Afghanistan 
destabilizes Pakistan and leads eventually to loss of control 
over its nuclear arsenal. But this is a situation in which 
reasonable people can differ, and value judgments will vary 
from individual to individual.
    Now, my written statement presents the argumentation for 
that finding in a good more detail. What I want to do with the 
remainder of my time this morning is just speak to a couple of 
the key issues that underlie the conclusions that I just 
presented, and in particular, let me say a little bit more 
about the interests we have at stake and the whole question of 
the cost associated with pursuing them and especially the 
viability of various cheaper middle way options between the 
kind of large reinforcement that General McChrystal is said to 
have recommended and either keeping the force we have now or 
withdrawing altogether.
    Let me begin with the question of interest. There are many 
things that we would like for Afghanistan, as we would like for 
any country in the international system. We would like 
Afghanistan to be ruled in accordance with the rule of the 
governed. We would like minority rights to be respected. We 
would like women to be educated. We would like the country to 
be prosperous, as we would for any nation and as we would seek 
to secure for any nation.
    Normally, however, the means that we pursue in order to 
secure those objectives are things other than killing in the 
name of the state. When it comes down to the things that are 
normally thought to justify the waging of war, there is a 
smaller subset of the interests that we would normally have for 
anyone in the international system that loom especially large. 
And I think in the case of Afghanistan, our critical interests 
there are the two that the Administration has already 
identified: that the country not become a base for striking us 
and that the country not become a base for destabilizing its 
neighbors and especially Pakistan.
    Of those two, the first is the one that has been the most 
talked about, whether al Qa'ida could again return to 
Afghanistan and use it as a base for attacking us. In many 
ways, the more important of the two is the second, the 
potential effect of chaos in Afghanistan and destabilizing 
Pakistan. Pakistan is a country in which we obviously have 
vital national security interests at stake. It is where al 
Qa'ida is located now. It has a real, live, honest-to-goodness 
usable nuclear arsenal, and it is a country that is currently 
waging an insurgency against a variety of terrorists and 
insurgent groups active already within its own borders.
    Should Pakistan collapse and risk the security of its 
nuclear arsenal, American security would be directly at threat. 
The problem is we have very little ability to deal with that 
threat directly. I would much rather that we were able to 
deploy the troops we are currently thinking about deploying for 
counterinsurgency in Afghanistan to assist the Pakistanis in 
prevailing in their insurgency, which is more important to us. 
I would like to be able to persuade the Pakistanis to shift 
their threat assessment from India to internal problems and 
transform their military from a conventional force to deal with 
a hostile state to a counterinsurgency force that could assist 
in defeating their internal insurgents.
    We have very limited ability to do any of these things 
directly in large part because we are so unpopular within 
Pakistan. In a situation in which our ability to deal directly 
with the threat that matters to us the most is so limited, 
arguably the appropriate way forward is to invoke the 
Hippocratic Oath and at least do no harm. Don't make a 
situation that we have very little ability to fix directly any 
harder to deal with than it is already.
    And it seems to me that one of the more important ways in 
which U.S. policy could, if we are not careful, make things 
importantly worse in Pakistan is if the counterinsurgency 
project in Afghanistan fails, the Karzai government falls, and 
we get either chaos and a renewed civil war within Afghanistan 
or a Taliban restoration with potential revanchist sympathies 
across the border.
    Now, that, I think, suggests that we do indeed have 
important interests at stake in Afghanistan, but they are 
indirect, and they are also limited in nature. We could succeed 
in Afghanistan, and if the Pakistani government does not put 
its own house in order, they could fail in their 
counterinsurgency anyway. If Pakistan does put its house in 
order and if they devote the resources at their disposal to 
resolving their own insurgency, we could fail in Afghanistan 
and the central threat to U.S. national security, the stability 
of Pakistan, could be secured anyway.
    We do have important interests here, but they are not 
unlimited, and the more important of them are indirect.
    What, then, is it worth spending to secure important but 
limited and indirect interests in Afghanistan? In many ways, 
the natural intuitive response is, if we have limited interests 
in Afghanistan, let us pursue them with limited means. And a 
variety of limited means have become very popular in the public 
debate. There are perhaps a half-dozen or more that have been 
widely discussed, including but not limited to: shifting from a 
combat emphasis in Afghanistan to one that would put the 
primary stress on training and advising Afghan indigenous 
security forces; or switching from a large counterinsurgency 
effort in Afghanistan to a more counterterrorism-oriented 
strategy based on the use of drones in northwest Pakistan; and 
many others.
    In the interest of time, I won't go through them all in 
substantial detail. My statement does that, and I would be 
happy to follow up in Q&A. What I want to do, however, is make 
an overarching characterization of many of these proposals and 
their analytic dynamics, and that is that most of the middle 
ways that have been proposed as ways of securing our interests 
in Afghanistan at lower costs than the kind of integrated 
multi-dimensional and very expensive counterinsurgency strategy 
that General McChrystal has proposed. The middle way is in 
important respects taking bits of that program, single 
elements, single dimensions, pulling them out of context and 
trying to do them alone without the rest. Leadership targeting, 
for example, is an orthodox part of integrated 
counterinsurgency. Training and advising an indigenous military 
is a central part of orthodox counterinsurgency.
    Orthodox counterinsurgency theory, however, claims, and I 
believe soundly, that the pieces of a normal counterinsurgency 
strategy are mutually supportive and provide synergistic 
benefits when executed together. The ground forces that secure 
the indigenous population make possible governance improvements 
and economic development. Governance improvements and economic 
development enhance security. Governance in the form of a 
viable, supportive regime in the country of interest enables 
counterterrorism and leadership targeting by assisting us in 
providing the intelligence that we need to find the targets. 
The pieces all support one another.
    If you take individual bits out of context and try to do 
them alone, what I think you get is, yes, a less expensive 
campaign, but one whose probability of success is lower than if 
we did the entire integrated package together. And that means 
that this problem of middle ways is a microcosm of the general 
problem of U.S. policy in Afghanistan, which is, we can invest 
more and reduce the risk to us; or we can invest less and 
increase the risk to us. The middle ways cost less, but they 
produce lower odds of success in exchange. And there is no way 
out of the vice grip of this dilemma for Afghanistan.
    There is no magic silver-bullet middle way that can provide 
comparable odds of success at lower cost. This does not 
necessarily make them bad ideas, but what it does is throw you 
back into the same problem of having to make a value judgment 
between what are you willing to pay in order to reduce a risk 
to the security of the United States by giving them out? It 
would be nice if there were some way of getting the same 
reduction in risk at substantially lower cost, but 
unfortunately, I don't think that is available to us.
    Thank you.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 64.]
    The Chairman. Dr. Paul Pillar.

STATEMENT OF DR. PAUL R. PILLAR, DIRECTOR OF GRADUATE STUDIES, 
  SECURITY STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF FOREIGN 
                 SERVICE, GEORGETOWN UNIVERSITY

    Dr. Pillar. Mr. Chairman, members of the committee, thank 
you very much for the invitation to address this important 
issue.
    The ultimate objective of U.S. endeavors involving 
Afghanistan is and should be to enhance the safety and security 
of the American people. Much public discourse about 
Afghanistan, unfortunately, has failed to distinguish clearly 
among that ultimate objective, certain missions that may or may 
not advance that objective, and specific strategies for 
accomplishing a particular mission.
    Our theater commander has quite properly focused on 
strategies for accomplishing his assigned mission as he 
currently understands it, in which, to put it quite simply, is 
to stabilize Afghanistan or at least to prevent the government 
of Afghanistan from falling.
    But policymakers in the executive branch and here in the 
Congress must confront a larger question, whether stabilizing 
Afghanistan through counterinsurgency would sufficiently 
enhance the safety and security of Americans enough that, given 
the cost entailed, it would be a mission worth pursuing.
    We are in Afghanistan as a direct result of and a justified 
response to the terrorist attacks on the United States in 
September of 2001. The prime overriding purpose of our 
intervention there is counterterrorism. Although I hasten to 
point out military force is only one counterterrorist tool, 
South Asia is only one possible place to employ it.
    Thus a more refined version of the overall question for 
policymakers is: Is the difference between the terrorist threat 
Americans would face if we wage counterinsurgency in 
Afghanistan and the threat we would face if we do not wage it 
sufficiently large and in the right direction, of course, to 
justify the costs and risks of the counterinsurgency itself? 
And my way of framing the issue is, in that respect, very 
similar to the way Stephen Biddle has phrased it.
    The counterterrorist objective in Afghanistan we invariably 
hear is to prevent terrorist groups and especially al Qa'ida 
from establishing a safe haven there or reestablishing a safe 
haven there. Terrorist groups do make use of territorial havens 
when they have them, but the use by a terrorist group of such a 
haven does not imply that its operations would be significantly 
impeded if it did not have one. Most important activities that 
transnational terrorist groups have performed in safe havens 
also can be and are performed, often with comparable ease, 
elsewhere.
    Even if al Qa'ida's friends and ideological soulmates in 
the Afghan Taliban were to offer it renewed hospitality inside 
Afghanistan, a location there would offer few attractions over 
its current haven in northwest Pakistan. In any event, it is 
not apparent to me how a move of al Qa'ida or parts of it from 
one side of the Durand Line to the other would substantially 
affect the threat the group poses to U.S. interests. Any such 
threat should be no less from Waziristan than it would be from 
Nuristan.
    Regardless of whether a renewed haven inside Afghanistan 
were attractive and useful to al Qa'ida or any other terrorist 
group, there is the further question of whether a 
counterinsurgency would preclude it. A haven would not require 
a patron with control over all of Afghanistan, but instead only 
a small slice of it. As described in General McChrystal's 
assessment, a properly resourced strategy--I am using the 
general's words--a properly resourced strategy would leave 
substantial portions of the country, those portions not deemed 
essential to the survival of the Afghan government, outside the 
control of that government or of U.S. forces. In short, even a 
properly resourced counterinsurgency that was successful in the 
sense of accomplishing the mission of bolstering the government 
in Kabul and stabilizing the portions of the country where most 
Afghans live still would leave ample room for a terrorist haven 
inside Afghanistan should a group seek to establish one.
    A further question is whether a group seeking a haven would 
require either Afghanistan or Pakistan. Radical Islamists, 
including al Qa'ida, have other unstable places to which to 
turn. Somalia and Yemen are two that immediately come to mind. 
The terrorist threat to U.S. interests, even just the Sunni 
Jihadist portion of that threat, did not all emanate from 
Afghanistan or any other single place. One hears frequent 
mention of links back to Afghanistan or Pakistan, but links do 
not necessarily mean direction or instigation. In many cases, 
they mean much less.
    Perceptions of what we do militarily in Afghanistan have 
other effects that are important to counterterrorism, and this 
gets under the heading of ``do no harm,'' as Steve Biddle 
mentioned. These include resentment of Western troops occupying 
Muslim lands and anger over the civilian casualties and other 
collateral damage that are an inevitable byproduct of even the 
most carefully prepared and skillfully executed 
counterinsurgency operations. A reflection of this inside 
Afghanistan has been the increase over these past few years in 
the number of insurgents fighting against us and our allies, 
many of whom we place under the label of Taliban but have 
little or no identification with the extreme ideology of the 
principal Taliban leadership.
    The Taliban are a loosely organized resistance concerned 
above all with their version of society, politics, and power 
inside Afghanistan. Despite the leaderships' clear ideological 
affinity to and proven cooperation with al Qa'ida, they are not 
driven by the transnational objectives associated with bin 
Laden and Zawahiri. Their interest in and antagonism towards 
the United States is almost entirely a function of what the 
U.S. does inside Afghanistan to thwart their aims there. The 
cause most likely to unite the Taliban is resistance to foreign 
occupation of Afghanistan. They will tend to be stronger to the 
extent that our military presence there is seen as an 
occupation.
    Now the possible connection of events in Pakistan--in 
Afghanistan to Pakistan has, of course, become a major part of 
debate and has been stressed by both of my fellow witnesses. I 
would like to stress two key questions on this dimension of the 
problem. One is how much effect anything happening in 
Afghanistan is likely to have on the politics and stability of 
Pakistan. We have a tendency to think of such questions in 
spatial terms, with visions of malevolent influences somehow 
suffusing across international boundaries like a contagious 
disease.
    But the future of Pakistan will be influenced far more by 
forces inside Pakistan itself. Those forces include the 
inclinations of the Pakistani population and the will and 
capabilities of the Pakistani military, which is by far the 
strongest, in several senses of that term, institution in 
Pakistan. Pakistan is more than five times the population of 
Afghanistan; its economy is ten times as large. Pakistani 
policymakers and the Pakistani military certainly have a very 
keen interest in Afghanistan, partly because of concerns about 
Pashtun nationalism and mostly as a side theater in their 
rivalry with India. But the events inside Afghanistan will not 
be the decisive or anything close to the decisive factor in 
shaping Pakistan's future.
    The other question is exactly what sort of influence, even 
if marginal, events in Afghanistan are likely to have in 
Pakistan. And it is hard for me to see exactly how the vision 
of spreading instability would work in practice. Even if a 
ruling Afghan Taliban, that is an Afghan Taliban that had re-
established a state or proto-state inside Afghanistan, decided 
to turn their attention away from consolidating domestic power 
to try to stoke an Islamist fire in Pakistan, and I don't 
believe they would, given that the Afghan Taliban have been 
beneficiaries rather than enemies of the Pakistani regime, they 
would have few additional resources to offer. And the Pakistani 
Taliban already have bases of operation in the Federally 
Administered Tribal Areas (FATA), which appear as part of 
Pakistan on maps but which Islamabad has never effectively 
controlled.
    In the meantime, an expanded U.S.-led counterinsurgency in 
Afghanistan would be more likely to complicate rather than to 
alleviate the task of Pakistani security forces insofar as it 
succeeded in pushing additional militants across the Durand 
Line. A larger U.S. military presence in the immediate region 
also would make it politically more difficult for the Pakistani 
government to cooperate openly with us on security matters in 
the face of widespread negative sentiment inside Pakistan 
regarding that presence.
    In conclusion, Mr. Chairman, we must eschew absolute 
concepts such as victory versus defeat, successes versus 
failure, because this problem, like many others, offers no 
clear conception of victory. We must instead carefully weigh 
costs and benefits of each contemplated course of action, 
including the direct expenditure of resources and a 
counterinsurgency in Afghanistan, and what it would buy us in 
the form of lessened terrorist threat while recognizing that no 
course is sure of success and that every course entails risk.
    My own weighing of these considerations leads to the 
conclusion that an expanded military effort in the cause of 
counterinsurgency in Afghanistan would be unwarranted. The 
benefits in terms of ultimately adding to the safety and 
security of the American people would be marginal and 
questionable. At best, the difference such an effort would make 
in the terrorist threat facing Americans would be slight. At 
worst, the effort would be counterproductive and would not 
reduce the threat at all. And even at its best, the benefit 
would be, in my judgment, outweighed by the probable costs of 
the counterinsurgency.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The prepared statement of Dr. Pillar can be found in the 
Appendix on page 82.]
    The Chairman. Thank you, Dr. Pillar.
    Let me mention that the elephant in the tent is the 
legitimacy of the Afghan government as a result of the flawed 
election. What is your advice on how we should approach the 
legitimacy of the Afghan government and the way ahead?
    I ask each of you that, please.
    General Keane.
    General Keane. Yes. Well, I don't believe that the problems 
associated with this government, as fraudulent as it is and as 
corrupt as it has been, in and of itself should trump what we 
are trying to achieve in terms of our national interests in 
Afghanistan.
    All that said, what can we do about it? We still have an 
election crisis taking place, even though the election is over. 
Karzai is somewhat insecure about the results of all of that 
and his relationship with us. I think that gives us an 
opportunity to do a couple of things with him.
    One is insist on what is in front of us is a transitional 
government as opposed to a permanent government with another 
election being held in a year or so. Have some say over who the 
members of that government should be. We know who the malign 
actors are, and I am not suggesting we go on a major anti-
corruption campaign. I think the atmospherics with all of that 
would have some negative feedback.
    I think we do this with precision, just as we did in Iraq. 
We knew who the bad actors were, and we dealt with it with 
precision, based on evidence and specifics, and we were able to 
move them, all away from media and other interest groups. So we 
should have some say about who is in the future of that 
government and then also a benchmark on how we are going to 
hold them accountable.
    I would also convene members of the international community 
dealing with establishing the legitimacy and the sovereign 
state of Afghanistan in the future in terms of--this is not 
something we should do unilaterally. We have countries in the 
region and other interested countries to do that.
    Make no mistake, I think we should lead the effort. And 
that should take place over the ensuing months as we proceed to 
establish a legitimate sovereign state, and we should, as part 
of that process, encourage others who want to seek leadership 
positions and run for office, encourage them to stay engaged 
and of course deal with Karzai in terms of any attempts that he 
would have to discourage them.
    So I think there are some things that we can do, and this 
really in the realm of a political strategy for Afghanistan 
that we don't spend much time talking about because we are 
focused on the insurgency and how best to defeat it. But I do 
think you put your finger on a major issue and something that 
we can do some work with and truly make some progress with.
    The Chairman. Thank you, General.
    Dr. Biddle.
    Dr. Biddle. The legitimacy of the Karzai government is 
absolutely critical and is very problematic, and this is the 
normal case in counterinsurgency.
    As a general rule, if the United States is involved in a 
counterinsurgency, it is because there is an illegitimate local 
government that gave rise to an insurgency in the first place. 
And therefore, almost any time we do this, we are going to have 
to confront the problem of serious misgovernance on the part of 
the host government.
    And I think it is interesting and important to note that 
the McChrystal report argues that governance and security are 
coequally important, and failure in either of these 
undertakings will produce a very high risk of mission failure 
overall.
    And again, I think this is not an uncommon situation in 
counterinsurgency. The election results over the summer hurt. I 
tend not to think that they are a transformational moment, 
however, at least for Afghans. There were widespread 
expectations that the election would be legitimate and corrupt. 
The magnitude was larger than some had expected, but we have 
not yet seen the kind of legitimacy crisis in Afghanistan that 
we saw, for example, in Tehran over the course of the summer. 
Perhaps we will eventually; we have not yet.
    As a result, I think what we have after the election in 
Afghanistan is a situation where a very serious underlying 
challenge, the legitimacy of the Afghan governance, has gotten 
worse, not better. But I don't think it is fundamentally 
transformed from a workable problem to an unworkable problem. 
What has happened--what has happened is a very difficult 
problem has gotten a bit worse.
    Either way, to make any difference, we are going to have to 
start using the leverage at our disposal as a result of our 
presence in Afghanistan as a systematic means of changing 
governance, not to produce a Central Asian Valhalla as the 
Secretary of Defense famously put it, not to produce 
Switzerland in the Hindu Kush but to produce a degree of 
governance improvement that meets the minimum requirement of 
ordinary counterinsurgency theory which is only a stable 
preference on the part of the population for their own 
government over the insurgents.
    This does not require that we eliminate corruption. It 
requires only that we produce a persistent preference for 
Karzai or his replacement over a Taliban that has never pulled 
above single digits in Afghanistan. I think this is a doable 
undertaking, but it is not going to be trivial or easy, and it 
will require that we much more systematically use our resources 
disposable to this end and that requires that the military side 
of the house in International Security Assistance Force (ISAF) 
see itself as a mechanism for governance improvement as well as 
security, which General McChrystal does, and that they 
cooperate very closely with diplomats and political specialists 
in the embassy in developing a program and a strategy for using 
the leverage we have to bring about the governance change that 
we need. It is hard, but I don't think it is impossible, and I 
don't think it is unique to Afghanistan.
    The Chairman. Thank you.
    Dr. Pillar.
    Dr. Pillar. Mr. Chairman, you are absolutely correct in 
putting your finger on this as a key issue. Not only is the 
problem of what is seen as an illegitimate government something 
common in counterinsurgency, but establishing that legitimacy 
is essential to success in the counterinsurgency.
    The one additional thought I would add to what my two co-
panelists have said is, I think what we ought to encourage, in 
terms of what we do right now, is cooptation and incorporation 
of a range of interests and views in the Afghan body politic 
through the traditional Afghan way, which is negotiation and 
striking deals, and not depend or wait for the next election.
    If we want to model on this--and I hasten to add it is not 
a very encouraging model, but this may be as well as we can do. 
You look at Zimbabwe, where there was a blatantly corrupt 
election engineered by Mugabe, and then the subsequent solution 
was to incorporate his opponent, Mr. Tsvangirai, into the 
government as prime minister. Now, they have had a lot of 
friction since then, but I think depending on the cooperation 
of Mr. Abdullah, the principal opponent of Hamid Karzai, 
something along those lines, a government of national unity, if 
you will, would be the best that can happen during the next few 
weeks.
    The Chairman. I thank the gentleman.
    Mr. McKeon, I understand you yield to Mr. Bartlett.
    Mr. McKeon. Mr. Chairman, I will hold my questions until 
the end and let the other members have----
    The Chairman. Fine. We will do that.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much. Thank you for your 
testimony. I am going to ask a question that is being asked by 
millions of Americans. Why is not Afghanistan the ultimate 
exercise in futility? Even if we are able to accomplish there 
what no one else has ever accomplished--Alexander the Great 
failed there. The British Empire failed there, twice I believe. 
The Soviet Empire failed there. And even if we are successful 
where no one else has ever been successful, would it really 
matter because the bad guys, they are saying, would just go 
into Pakistan? And then would we assist Pakistan with 
additional huge investments of blood and capital? And if we are 
successful there, then the bad guys would go to Somalia or 
Yemen or some other place in that part of the world because 
many of the central governments there have little control of 
rural tribal areas.
    And so they are asking, if we make the huge investment that 
would be necessary of blood and treasure to win in Afghanistan 
and Pakistan, in the words of the old farmer, would the juice 
be worth the squeezing?
    Dr. Biddle. I guess I will start. There are two important 
dimensions, at least, in the question. One is, can we succeed 
at all? And the second is, would the problem simply go 
somewhere else even if we did succeed?
    Let me start with the second and move to the first. Yes, 
the problem would go somewhere else. I mean, I absolutely agree 
with Paul Pillar on that point. One of the reasons why I think 
our primary interest in Afghanistan is indirect and involves 
Pakistan more than Afghanistan per se is that Afghanistan is 
not unique as a potential base for terrorism. There are many 
places around the world that would constitute at least 
secondary alternatives that al Qa'ida would surely move to.
    Where Afghanistan is unique is its geographic proximity to 
a threatened unstable country that has a nuclear arsenal and 
where al Qa'ida is already operating. And it seems to me that 
where there are many potential bases for al Qa'ida to operate 
in, a Pakistan that collapsed and that as a result lost control 
of its nuclear arsenal is a unique threat to us geographically. 
That is a problem that is very, very different from Yemen; that 
is very, very different from Somalia. I would certainly not 
advocate for myself deploying 68,000 or more American soldiers 
to Somalia to try to deny al Qa'ida a haven there. I think the 
problem with Pakistan is of a very different order. And again, 
the problem with it is we have very little ability to secure 
our interests directly, and therefore, we are stuck trying to 
moderate the threat in the ways that are available to us, which 
prominently include Afghanistan.
    Can we succeed in Afghanistan anyway? Is this a graveyard 
of empires in which success is impossible? I would begin by 
saying that the historical record is a bit more ambiguous than 
it is sometimes portrayed as being. The three Anglo-Afghan 
wars, for example, that are often cited as examples of how 
foreigners always fail in Afghanistan, with the exception of 
the first, in the second two, the British actually came out 
with a significant fraction of their interests at stake in the 
conflict. It wasn't an unambiguous, straightforward, simple, 
low-cost conquest to the foreign country. Neither was it a 
situation in which Britain was simply vanquished, left with 
nothing and had no ability to secure its interests through its 
influence on Afghanistan. It is like often is the case in South 
Asia, a muddy in-between case.
    Let me speak to one of the more direct analogies that 
underlies the argument, however, of a graveyard of empires, and 
that is the Soviet experience in the country. In many ways, the 
Soviet experience is a very poor guide to our prospects today. 
To begin with, the Soviet Union was recognized by all Afghans 
within milliseconds of their arrival in the country as a 
hostile force that was pursuing its own interests and not 
Afghanistan's. The United States was much more popular among 
Afghans in 2001 than we are now, but we remain substantially 
popular among an important fraction of Afghans. We are much 
more welcome than the Soviets had been.
    The Soviets had an extremely poorly trained, poorly 
motivated conscript military that was very poorly equipped for 
counterinsurgency. We have one of the best trained, best 
motivated, and increasingly best equipped counterinsurgent 
forces in the history of counterinsurgency. The Soviets were 
facing an opposition force that by the late 1980s numbered 
perhaps 150,000 Mujahideen. Estimates of Taliban strength today 
are uncertain, but they are nowhere near that, perhaps in the 
20,000 to 40,000 range. Moreover, to pick another analogy 
that's popular, Vietnam, relative to Vietnam the Taliban 
coalition that we face in Afghanistan is much, much weaker. 
There are a deeply divided, very heterogeneous collection of 
actors with very different interests, very different 
motivations and very different stakes in the conflict that have 
substantial difficulty in coordinating their activities. They 
are also radically unpopular among Afghans, who unlike the 
South Vietnamese facing the Viet Cong know what they would get 
if the Taliban were to take over and have consistently said 
that they don't want it.
    Finally, the Taliban coalition, although it is 
heterogeneous, is almost entirely Pashtun. Afghanistan, while 
importantly Pashtun, especially in the south and east, is not 
entirely, so that also tends to produce constraints and limits 
on the ability of the Taliban to expand.
    All these things don't provide some sort of guarantee that 
if we just do ``X,'' we will succeed in Afghanistan. This is a 
probabilistic world, and at best we are buying a chance of 
success, but I think it is an overstatement to say that success 
is impossible or the chances of success are negligible.
    The Chairman. I thank the gentleman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you gentlemen 
for being here.
    General Keane, please remind me. I forget when you retired. 
What was your date of retirement?
    General Keane. December 2003.
    Dr. Snyder. December 2003. So your testimony today is very 
helpful to me. In September of 2001, we had the vote in the 
House on giving the President the authority to go over after 
the perpetrators of the events, and then I was really struck on 
the first page of your testimony. This was the strongest public 
statement I have seen here in which somebody acknowledged who 
is on the inside how underresourced we did in the war in 
Afghanistan, and I am just going to read it again.
    ``It is a fact that Afghanistan, beginning in 2002 and 
increasingly so in 2003, became a secondary priority to the war 
in Iraq. Indeed it remained as such till this year, 2009, when 
only now we are beginning to shift our priority effort from 
Iraq to Afghanistan. As such, as a secondary effort, despite 
the addition of NATO forces and resources, Afghanistan has 
always been operating at the margin and, in most of those 
years, below what was required in forces and resources.'' We 
had a new Administration come in, 17,000 troops increased, U.S. 
troops, General McChrystal brought in, in a change of 
leadership in May of this year, and now he has completed his 
reassessment, so we are going through this discussion.
    The question I want to ask is this: You all have discussed 
this topic as we all should in terms of what is in the interest 
of the United States. I have also been struck, though, by the 
discussion that is going on now in contrast with our debate in 
2001 about what kind of a commitment we would keep to the 
Afghan people and the people of Afghanistan. I have talked to 
two different House Members in the last couple of weeks who 
have met with Afghan legislators, women Afghan legislators, and 
the message they got from these meetings were very eloquent: 
Please don't abandon us again.
    Now, that is not a U.S. national security interest. I 
believe it is an interest that we need to be cognizant of, and 
none of you discuss that in your statements. So my question is 
what impact, if any, on the decision-making process going on 
here and in the White House should our responsibility--perhaps 
you might describe it as a moral responsibility--to the Afghan 
people be? Dr. Pillar, when you talk about spreading 
instability, I almost--that almost seems to me as a euphemism, 
but we know what will happen, don't we, if the Taliban go back 
into an area where people have stepped forward in leadership 
positions or women have stepped forward, so we ought to be sure 
what we are talking about when we talk spreading instability.
    We are talking about people who had aligned themselves with 
the NATO forces being killed. So I would like you just to 
comment on the question how much of that sense of 
responsibility--and I am prepared for us to decide after eight 
years not much, but I am not sure I agree with that answer.
    General Keane. I will jump out there. I do believe after we 
deposed the Taliban back in 2001 for all the reasons we 
understand and then brought back in Karzai from an exiled 
position and established a government and began to put the 
threads of a country back together again under a new 
government, I do believe that there are some moral implications 
there for us as a Nation and given what our values are in terms 
of obligation to those people. And I did say in my statement in 
Afghanistan and Pakistan one of the real problems we have is 
their skepticism about us staying in those countries, our 
commitment and resolve, because of our past history in 
Afghanistan and in Pakistan. I do think----
    Dr. Snyder. The perception issue is a different issue than 
what I am asking about. I am asking what kind of moral 
obligation----
    General Keane. I do think there is a moral obligation. I do 
think that our national interests should be what drive us. But 
this is the United States and the values that we stand for are 
certainly at play here. And as I am trying to indicate that 
when we took the Taliban down and put rulers in, we still have 
some obligation there. Many of those people that we helped put 
in there are still there. And we gave the Afghan people 
certainly a considerable amount of hope in terms of what their 
future would be, and we have done some good things there. I 
don't want to diminish those. But, yes, it is there. But our 
national interest should drive us primarily.
    Dr. Pillar. I think it is quite proper for certainly 
Members of Congress to weigh that as a consideration and for 
our policymakers in the executive branch to do that as well. I 
would only say that as long as you do that, we should be clear 
that that is the reason or the rationale, or at least one of 
the reasons and rationales for doing what we are doing in 
Afghanistan rather than being a matter of protecting the 
security of the American people. It is legitimate, but let us 
be clear on what our objectives are.
    The Chairman. I thank the gentleman. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Keane, would you respond to Dr. Pillar's two 
arguments. Number one, it doesn't matter which side of the 
Durand Line al Qa'ida sets up its bases, they are already here, 
so if they move over there it is not a significant difference. 
And secondly, as I understand the second argument is that what 
really matters is what happens in Pakistan, and that 
Afghanistan, even if it goes back to the Taliban is not going 
to destabilize Pakistan because, after all, there are 
relationships between the Taliban and elements in the Pakistani 
government that go back a long time. So it is not going to 
really matter in--where Pakistan goes.
    General Keane. Yes. Well, first of all, the al Qa'ida had a 
sanctuary in Afghanistan for a number of reasons as a major one 
because the terrain, the geography, the topography itself lent 
itself to shielding it much better than it does in Pakistan. In 
my judgment, certainly with Taliban protection as a host again, 
they would want to reestablish some element of that. And also 
we have them we are beginning to have them bottled up a little 
bit in Pakistan. Our intelligence has improved. We are using a 
lot of the infrastructure that we have in Afghanistan to assist 
with operations. Some of this gets into the classified arena, 
so we will keep this in a public forum here, but the reality of 
that is that the relationship in Afghanistan to stability and 
Pakistan to al Qa'ida is a real one. In my view, the al Qa'ida 
network and their training program and supporter program 
assists tangibly the Taliban, not only the Taliban in Pakistan 
but the Taliban in Afghanistan.
    And why would we suppose anything else? I mean, this 
relationship existed before 9/11. It was a cooperative 
relationship based on mutual interests, and for them it was 
working. It is still working in Pakistan, and the cooperation 
in Afghanistan is a different nature.
    So make no mistake. It would be much more reestablished 
than what it is now. And the--I don't know how we can hope to 
continue to make progress in Pakistan if we lose in 
Afghanistan. It makes absolutely no sense. It defies common 
sense to me to think that we would take that risk where the 
declared center of gravity for the al Qa'ida--it was the 
central front to kill Americans in Iraq. That is gone because 
they lost that war. It is, in fact, destabilizing Pakistan. Why 
is that? Why is that such a central front to them?
    The reason is obvious. These are the same people who 
attacked us and the same people that want to break the moral 
spine of the Americans and collapse our economic system by 
having multiple weapons of mass destruction (WMD) events in our 
country. They have not given up on any of that. And they want 
that country and they want those weapons. And the relationship 
with Afghanistan and the Taliban to Pakistan I think is real. 
And if we lost Afghanistan, for the life of me I don't see how 
that wouldn't be a major, major impediment to what we are 
trying to do in assisting the Pakistanis to stabilize their 
country.
    Mr. Thornberry. Thank you. Dr. Biddle, I want to get back 
to a discussion that you and Mr. Bartlett were having. Isn't it 
the case that Afghanistan was relatively stable from the 1930s 
to the 1970s under a king who was not a strong central power, 
of course, but still during that 40-, 50-year period, until you 
got into the assassinations that led to the Soviet invasion in 
1979 that basically the place was pretty stable?
    Dr. Biddle. Yes, that is correct. It didn't have a strong 
central form of government, but it was largely stable. It 
wasn't a failed country. People weren't worried about overflow 
into neighbors of the kind of instability that we are worried 
about today. Moreover, that model of relatively weak central 
government, imperfect administration, substantial poverty, but 
relative stability is not uncommon in the developing world.
    Now, the debate over Afghanistan's political future at the 
moment is, in part, about whether or not the Afghan governing 
system of the Mazar Haban era under the king is replicable 
today given the kind of demographic change that we have seen in 
Afghanistan and the effects of the civil war and its aftermath. 
So I think it is not trivially easy to simply reproduce that 
era today, but there is a model for how it has been done 
successfully in the past.
    Mr. Thornberry. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And gentlemen, thank 
you for being here this morning.
    I agree that we have two major challenges as we try to work 
our way through this very critical part of the world. The first 
one is there are a lot--as I have talked to representatives of 
different governments urging them to support us in Afghanistan 
not so much with military but with reconstruction resources, 
their angst is they are afraid we are going to do the same 
thing we did previously and that is leave and they will be 
stuck holding the bag.
    The second issue is how do we--what strategy do we use to 
convince them that not only we don't intend to do that but it 
is in everyone's best interest worldwide. All the different 
countries, even those that are neutral in this effort may be 
affected if Afghanistan fails, if the Taliban takes control and 
al Qa'ida or some other yet to be determined terrorist 
organization has a base of operation.
    So if you three gentlemen would address those two points. 
How do we make the argument to them that we are not going to 
leave as we did the last time and how do we convince them that 
it is in everyone's best interest to help us there? Again not 
just with military resources but reconstruction resources as 
well.
    General Keane. I will start. The--well, I believe very 
strongly in what you just said because the skepticism, as I 
mentioned before, that is in Afghanistan and also in Pakistan 
is very real and in South Asia in general about the United 
States resolve. I mean, you know as well as I do, one of the 
things that Musharraf did which helped protract a war in 
Afghanistan was his hedging strategy because he wasn't certain 
that we were going to stay the course in Afghanistan and as a 
result of that his ISI organization and others assisted the 
Taliban to a certain degree because he felt he would have to 
live with them again.
    So these issues are out there and they are very pregnant. 
And I would hope that one of the advantages that the President 
has as he is conducting this very deliberate review process is 
the opportunity for him to be very decisive about what his 
intent is in Afghanistan and very clear about it. And I think 
it is an opportunity for him to make the commitment to 
Afghanistan in terms of stabilizing this country with the 
appropriate resources, and I think an unequivocal statement 
along those lines and people will judge not just what he says 
certainly but what he does, what are the resources and what is 
the strategy that he is putting in play. And I think it is 
critical. I think you put your finger on something that is 
vital to our success in a counterinsurgency is the support of 
the people. Now, we do have that support. They do want us to 
stay. They want us to succeed. But they have every right to be 
skeptical about that.
    The second point dealing with other help, look, we do need 
help. We shouldn't bear this financial burden by ourselves and 
there are other countries in the region that can certainly help 
and other interested countries. Obviously NATO is involved and 
a lot of frustrations with NATO with 42 countries there and 
very few of them providing combat forces and we just sort of 
wave our hands and give up on it. But the fact of the matter is 
if they are not going to provide combat forces, then there 
should be some financial relationship to Afghanistan as a 
result of not providing those combat forces.
    And I think we should be pretty tough about what our 
expectations are to bear that financial burden not by ourselves 
but with other countries in the region and also in NATO.
    Dr. Biddle. I think the question of U.S. resolution and 
will is obviously important in lots and lots of ways in 
Afghanistan. We are laboring against the challenge that our 
observable history is not helping us here. South Asians know 
what we did with respect to Afghanistan the last time around. 
What that means is that, yes, I think it is important for the 
President and in particular the government at large to stake 
out a clear declaratory position once we have decided. But 
actions do indeed speak louder than words and credibility 
builds gradually over time through observed demonstrated 
actions on our part. There is no way to change people's 
perception of our willingness to stay overnight. It will only 
happen by, in fact, staying and by, in fact, turning the tide 
on the ground and demonstrating that we are willing to pay the 
costs if that is what we ultimately decide.
    The Chairman. I thank the gentleman.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    I would like to thank the three of you for being here and 
we only have five minutes; so I will try to keep my questions 
concise and ask you to do the same on your answers.
    General Keane, we have appreciated so much your testimony 
over the years, and I know from the period from 1999 to 2003 
you were the Vice Chief of Staff of the United States Army and 
we relied a lot on your testimony.
    During that period of time when we were in Afghanistan, did 
we have a strategy? I am not saying it was the right strategy 
but did we commit troops to Afghanistan with no strategy at all 
while you were the Vice Chief of Staff?
    General Keane. We deposed the regime, if you can remember, 
with the assistance of the Northern Alliance and our special 
operations forces and air power and I thought that was fairly 
brilliant, frankly, and the Central Intelligence Agency 
conceptualized that, and I think it was a better plan than what 
we had in the Pentagon just to be honest about it.
    But then very quickly, listen, in December of 2001 was the 
first time sitting together as a senior Four Star that I was 
told that they were thinking that we were going to go to war in 
Iraq. That was December of 2001. We dropped Afghanistan, the 
Taliban in November, if you can remember, of 2001. And then 
General Franks was given instructions to make plans, and his 
organization intellectually started to get its arms around a 
much larger problem of going to war in Iraq. And some of us 
argued at the time that I while I didn't--I could see Iraq in 
the future as to why something like that may needed to be done 
if we were not able to get our hands on the WMD issue, what 
concerned us was the fact that we would take resources away 
from Afghanistan.
    Mr. Forbes. General Keane, just because my time's almost 
up, my question is not whether you thought the strategy was 
right or wrong. Did you have a strategy at all for Afghanistan?
    General Keane. The strategy for Afghanistan after deposing 
the regime and bringing in a surrogate government under Karzai 
was a very minimalist strategy. I mean, the fact of the matter 
is the leadership at the time believed that--and you probably 
are aware of this, that the last thing that we wanted to do was 
nation build, and I think that was an overreaction to the 
previous administration. And what we wanted to do was stand up 
the host country, don't create an artificial dependency on us, 
and give them the minimal resources so they would bring their 
ministries and their services that they need to provide online 
much faster as opposed to the more robust model that was used 
in Bosnia which many of the people in the administration felt 
created this artificial dependency and protracted it. That was 
the strategy. And I think it was the wrong strategy to be quite 
frank about it, and I think time certainly has proved that to 
be the case.
    Mr. Forbes. Dr. Biddle, let me ask you very quickly, you 
said that the analytical benefits of war in Afghanistan is a 
close call. In other words, I take it, depending on which side 
you chose in terms of the analysis you could make that decision 
as to whether or not we should be in the war or not be in the 
war; is that a fair assessment?
    Dr. Biddle. There are serious counterarguments to either 
position.
    Mr. Forbes. If that is the case, then how would you 
determine is this a war of necessity or a war of choice?
    Dr. Biddle. I tend to think that that is a distinction of 
degree rather than in kind in most wars, but clearly we have 
alternatives to the policy we are now adopting in Afghanistan.
    Mr. Forbes. Would you call it a war of necessity or a war 
of choice if you had to make the call?
    Dr. Biddle. I suppose it is more a war of choice than a war 
of necessity, but I think most wars involve a degree of choice.
    Mr. Forbes. Dr. Pillar, you retired I think in 2005 from 
the Intelligence Community. Since that time, have you had any 
access to classified information or anything like classified 
information that was going on about Afghanistan?
    Dr. Pillar. No, sir, I have not.
    Mr. Forbes. Do you agree that General McChrystal is the 
best that we have to get that kind of information from as to 
what is going on in Afghanistan now?
    Dr. Pillar. I would presume we have multiple sources of 
information. He, as the theater military commander, would have 
one channel of information----
    Mr. Forbes. Would you want to talk to him if you were 
developing a strategy?
    Dr. Pillar. Certainly.
    Mr. Forbes. General Keane, do you agree that--you told us 
that we should rely on General McChrystal's judgment. Do you 
believe that he is the best that we have right now as far as an 
assessment in Afghanistan?
    General Keane. Yes, I do. And let me just add something to 
that. I mean, look it, after we took the Iraqi military down, 
our military was very ill prepared for counterinsurgency 
intellectually and in any--in terms of doctrine lack of 
training, and it was true of our generals. No fault of theirs. 
The fault of people like myself who were running the military 
and didn't provide that kind of foundation. We have been at 
this now for a long time, and we are very good at this, and 
McChrystal is at the top of our game. He has been at this for 
five years. He has got a huge amount of experience, and he has 
the intellect to deal with, the judgment and the experience, 
and he also has a great mentor in Dave Petraeus. The two of 
them are the best probably that has ever been put together. So 
I value their judgment quite a bit in terms of what needs to be 
done, because I believe they have got a handle on it.
    The Chairman. I thank the gentleman.
    The gentlewoman from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here today. I wonder if 
you could focus more--and I am sorry, I had to be out of the 
room for a few minutes; so I might have missed some of your 
discussion about the Taliban. But to think about the discussion 
that is going on now and whether it is based on some 
assumptions that you believe are correct or in some cases may 
not necessarily be correct about the Taliban and the 
relationship of our strategy to Iraq and what we did there. Are 
we making some assumptions there that you don't think are 
necessarily going to play out?
    I think the follow-up question to that really relates to 
whether or not our interests, and certainly we have had a 
number of commentators that are suggesting moving away from 
nation building and more toward deal making with the Taliban, 
whether that is a strategy that you think has more negative 
than positive opportunities.
    Dr. Pillar. I will try to respond to that. I think the main 
mistake in assumption that is being made is because what we 
know as the Taliban is ideologically extreme as al Qa'ida. It 
is ideologically similar to it. Because it has a proven 
alliance with al Qa'ida, then it therefore follows that the 
Taliban itself is some sort of security threat to the United 
States beyond what we are doing ourselves in Afghanistan. That 
is a mistaken assumption. The Taliban is one of the most 
insular inward-looking groups anywhere. They are concerned 
overwhelmingly with what is going on in Afghanistan. They are 
not a transnational terrorist group. They do not have larger 
global designs like al Qa'ida and bin Laden do.
    Another assumption that has been taken as a so-called no-
brainer, but I think is much short of a no-brainer is this 
business about, well, if the Taliban established some kind of 
protostate in Afghanistan that that would mean automatically al 
Qa'ida would come back in and have a big safe haven. Well, we 
have already addressed the question of how much that would 
matter whether they did or not, but it is not an automatic 
certain thing. The fact is that the biggest single setback that 
the Afghan Taliban has ever suffered, a catastrophic setback, 
was their loss of power over most of Afghanistan thanks to our 
intervention in Operation Enduring Freedom as a direct result 
of al Qa'ida's terrorist activities. That doesn't mean we are 
going to have a break between the Taliban and al Qa'ida. It 
does mean it would be a source of strain. It does mean that 
that Afghan sanctuary we keep hearing about is not necessarily 
going to be any more attractive than what al Qa'ida has in 
Pakistan right now.
    Dr. Biddle. The Taliban are clearly not a direct threat to 
the United States. The Taliban are not going to launch missiles 
at us. The question is not whether they are a direct threat to 
the United States. The question is would their either retaking 
control in Kabul or their actions leading to a collapse of the 
current government in Kabul indirectly create a problem for us 
by enabling other actors, either al Qa'ida in Afghanistan or al 
Qa'ida or many others in Pakistan and again for my money the 
latter is the bigger problem.
    Moreover, I don't think the right way of thinking about the 
Taliban and al Qa'ida in Afghanistan is whether it is 
automatically an invitation to al Qa'ida. We live in a 
probabilistic world in which the whole problem here is one of 
judging relative likelihood.
    So I don't think you can guarantee that al Qa'ida would be 
invited back in. You also can't guarantee that it wouldn't. The 
problem is assessing the relative likelihood and how much of 
the likelihood you are going willing to tolerate.
    The other issue I wanted to talk about though is this 
question of deal making and deal making with the Taliban in 
particular. Most--many counterinsurgencies historically end 
with some sort of negotiated settlement. The right way of 
thinking about this war is not success means the last Taliban 
dies of arteriosclerosis in a cave somewhere. Probably the end 
game for this if we end up with something that looks like a 
success from our perspective is some sort of a deal in which 
elements of the Taliban are civilianized and brought into the 
government as legitimate political parties in exchange for 
other concessions that we can live with. The problem is we 
can't get that right now because the other side, or the other 
sides, as this is a heterogeneous collection of actors on the 
other side of the front in Afghanistan, are by all indications, 
unwilling to make any kind of compromise that would produce an 
outcome that we can live with. The Karzai government has made 
informal contacts with both the Mullah Omar Quetta Shura 
faction and Hekmatyar apparently through Saudi intermediaries 
for quite some time now. The negotiations never go anywhere 
because the Taliban keep insisting that a precondition for 
talking is that all foreign forces leave the country. That is 
an obvious poison pill.
    The Chairman. Thank you.
    The gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, for this very 
important hearing.
    General Keane, when I saw you were coming, I am thrilled to 
have you here because your past testimony here has been very 
accurate. It has been ahead of the curve. It has been 
politically incorrect, but you have been proven correct. So I 
want to thank you for your past testimony and being here today. 
Additionally, I agree with President Barack Obama that a 
central front in the war on terrorism is Afghanistan and 
Pakistan. We just simply can't walk away. We must face it. And 
I particularly have the perspective--my former National Guard 
unit, the 218th Brigade, served for a year in Iraq, training 
the Afghan police and army units. General Bob Livingston. And I 
visited every three months. And I know so many people in that 
unit and they felt so good about working with their Afghan 
brothers, people who do want to live in a free market society.
    Additionally, I am grateful to be the co-chair of the 
Afghan Caucus. So I have had the opportunity to visit the 
country nine times. I have visited as far as east as Asadabad. 
I just returned two months ago from visiting in Helmand, Camp 
Leatherneck, Marines trained at Parris Island, General Larry 
Nicholson, summa graduate. It is just--seeing our troops, they 
can make a difference, and I know that they can be successful. 
And I have the greatest faith in General McChrystal, Ambassador 
Eikenberry. We have got the right people in place, and we need 
to follow their advice.
    With that, General, what do you think of the capabilities 
and proper roles of the Afghan national police and Afghan 
national army? Are they being effectively trained? Are they 
large enough? What do we need to do for troop strength and 
equipment?
    General Keane. Yes. Well, thanks for all the support that 
you provide to our troops out there particularly with those 
frequent visits. I know they are appreciated.
    That is a great question. I mean, the Afghan national 
security forces clearly are the final solution. The problem we 
have, we had the same problem in Iraq in 2006. The level of 
violence had reached epic proportions in Iraq in 2006 and was 
way beyond the capacity level of the Iraqi security forces to 
cope with it. So we had to bring that violence down to a point 
where they could cope with it and then we are able to put 
together a strategy where we gradually and deliberately leave 
the country. That is what is unfolding in front of our eyes. 
That is the way you have a successful end to that strategy. And 
that is what the intent time is here.
    Now, can we do that? Well, the problem is this growth of 
the Afghan national security forces has been on a diet for the 
last seven or eight years. I mean, they are at a pitiful number 
in terms of where they should be. A little less than 100,000 
police and now reaching for 134,000 by 2010 in terms of the 
growth of the army. We have got to expand that dramatically. 
The commanders certainly understand that.
    Defense Minister Wardak clearly understands it. He is at 
the 400,000 number and I believe the generals are at that as 
well; so we are talking about doubling that. So that is 
crucial. The quantity, it really makes a difference.
    Hold on to this thought: When we went into Iraq in 2007, we 
put about 35,000 people, part of that surge, from February to 
July. The Iraqis put on the street 125,000 troops from January 
to December of that year that were not there the previous year. 
Now, that also contributed to the success, and they don't get 
much credit for it because we have a tendency to talk about 
ourselves a lot. But the fact of the matter is we have to do a 
similar thing in Afghanistan. We have to get those numbers up 
to where they make a difference. We will do side-by-side 
operations with them. Their growth and development will be very 
dramatic once we do this. We have got to stop wringing our 
hands about the fact that they are illiterate and it is very 
hard to find leaders. Listen, in the final analysis this force 
we put together has got to be a little bit better than the 
other Afghans that they are fighting. We are not building an 
image of a Washington military force and we are certainly not 
building something like the Iraqi military, who had a history 
of a large standing army. We are building a security force 
inside Afghanistan for the Afghans so that they can rely on 
that force without us.
    Mr. Wilson. And I share your high opinion of General Abdul 
Wardak, the Minister of Defense, and also the Minister of 
Interior. They are not corrupted and I see real opportunity.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Loebsack, the gentleman from Iowa.
    Mr. Loebsack. Thank you Mr. Chairman.
    Thanks to the three of you for being here today. It is 
always good to see you folks. My first time with Dr. Pillar, 
and I appreciate your testimony as well.
    Let us assume for a moment that we take a maximalist 
approach, that the Administration chooses the counterinsurgency 
strategy in spite of misgivings on the part of a number of 
folks. We in this Congress are faced with a lot of very 
important decisions on a regular basis, but it seems as though 
we are looking at a number of big projects right now, including 
health care, for example, and we have got huge deficits, long-
term debt problems as well as far as the eye can see, even if 
we don't adopt a health care plan of one sort another anytime 
soon.
    I am interested in knowing, in particular, what Dr. Pillar 
and Dr. Biddle believe to be the long-term costs of the 
counterinsurgency strategy because we are not looking just at 
military costs, obviously. We are looking at a lot of other 
things too. If we are really going to adopt a counterinsurgency 
strategy and pursue that we are talking about capacity 
building, we are talking about economic development, we are 
talking about a number of things, a number of elements to that 
strategy.
    If you would, Dr. Biddle, begin, could you give us some 
idea of the long-term costs, and I guess there has to be an 
assumption made as to how long we are talking about before we 
can begin talking about those costs too.
    Dr. Biddle. On the costs side, I think a reasonable rule of 
thumb here might be roughly the scale of costs that we have 
been expending in Iraq. Iraq is a country of comparable 
population to Afghanistan. Ordinarily counterinsurgency effort 
is scaled to the size of the population to be defended. So I 
think to a first approximation, a ballpark on the likely cost 
of continued operations on an annual basis in Afghanistan will 
be that they could very well rise to what we have been spending 
in Iraq. They have been running radically--well, substantially 
lower than that in Afghanistan. I think that is not a good 
guide to the future.
    In terms of how many years we will have to incur that scale 
of cost, there is a paradoxical quality to the answer to that 
question. If we are prepared to stay long enough to prevail, 
there is a reasonable chance that we can negotiate the kind of 
deal that Mrs. Davis was talking about earlier because we can 
change the long-term prognosis of the opponent, what they think 
they could get in the absence of a deal in a way that opens 
bargaining space and makes a possible deal sooner. A deal could 
end the war if reached much, much sooner than the kind of 5- to 
15-year commitment that people often talk about for 
counterinsurgency.
    If we are not willing to stay for the longer term, we 
aren't going to get the deal in the short term that could 
shorten the war. I think the expectation, therefore, has to be 
that if we are going to do this, we have to be willing to pay 
Iraq-scale costs for three to five years at a minimum.
    If we are willing to do that, perhaps we will be fortunate 
and be able to negotiate a deal that would end that expenditure 
sooner than that, but I think it would be very unwise to plan 
on that basis.
    Mr. Loebsack. Dr. Pillar.
    Dr. Pillar. Steve Biddle is much more of a 
counterinsurgency expert than I, and I have no reason to differ 
from his estimation of Iraq-scale cost for at least three to 
five years. The only thing I would add as a supplement to what 
Steve said is I don't see any one deal that would cut short the 
war. We are not going to reach an agreement with Mullah Omar or 
the Quetta Shura. We can and should and must, or the Karzai 
should and must reach individual deals with pieces of what come 
under the label of Taliban, but that is part of prosecuting the 
war. It is a support to the war. It would not end the war.
    Mr. Loebsack. One last question. Dr. Biddle, could you 
respond to Dr. Pillar and his concern in particular about 
engaging in the kinds of activities that you and General Keane 
are talking about in Afghanistan and the problems that that 
creates for reputation, what have you, on the part of the 
United States in Pakistan? Because you are assuming that really 
the major interests that we are trying to deal with in 
Afghanistan is the indirect one having to do with Pakistan.
    Dr. Biddle. The issue has to do with the difference between 
the short term and the long term. In the short term, anything 
we do in Afghanistan tends to hurt us in Pakistan. Anything we 
do, period, tends to hurt us in Pakistan. I give you the Kerry-
Lugar bill, for example. The question is in the longer term if 
what we do in Afghanistan has the effect of creating government 
collapse and chaos there my sense is that is likely to have 
more negative consequences for stability in Pakistan than the 
short-term problem of U.S. reinforcement in Afghanistan in a 
way that would be played in Islamabad and in Pakistan public 
opinion. Let me just, very briefly, emphasize that Paul Pillar 
and I are in agreement on the dynamics of negotiation with the 
Taliban.
    Clearly this is very a heterogeneous movement. If we could 
settle with factions other than the Quetta Shura Taliban and 
Mullah Omar that might very well enable us to largely disengage 
from the conflict, that would not end violence in Afghanistan 
per se.
    Mr. Loebsack. Thank you, Mr. Chairman. Thanks to all three 
of you.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And gentlemen thank you for being here today. The--from a 
commander's perspective, sending men and women into harm's way 
and knowing some of them won't come has got to be the toughest 
thing they do and as the Commander in Chief, that is what the 
President is doing right now. But I cannot believe that this 
public hand wringing that the President is experiencing and 
going through isn't doing anything but being unsettling to the 
men and women he has asked to fight that fight and their 
support group back home as they watch this unseemly process he 
is going there. Yes, he has got to get advice from everyone, 
but I would argue that sooner is better than later in much of 
what is going on.
    The Taliban has been--al Qa'ida has been collocated with 
the Taliban long enough now that they are co-married--they have 
married with these tribes. They are undistinguishable between 
each other. It is not a hat they switch. And even the President 
has said in a speech in August that a strength in Taliban--his 
words were ``if left unchecked, the Taliban insurgency will 
mean an even larger safe haven for al Qa'ida.'' I don't know 
that we can, in effect, separate those two.
    A show of hands or just a head nod, anybody arguing for the 
status quo in Afghanistan? Dr. Pillar, are you arguing for the 
status quo? Okay.
    It comments on the fact that Pakistan seemed to have made a 
deal with the devil that as long as Taliban would stay in the 
FATA in the northwest provinces they were fine. Clear evidence 
is that that is no longer the case. They have come out of the 
FATA. If we would abandon everything and leave, do you think 
the al Qa'ida/Taliban would stay in the FATA and not continue 
to threaten the central government in Pakistan?
    Dr. Pillar. One thing we should remember is that the 
Taliban was--the Afghan Taliban was midwifed by the government 
of Pakistan, as General McChrystal noted in his assessment that 
was made public last month. The Pakistani Inter-Services 
Intelligence Director reportedly still does do business with 
the Afghan Taliban. It is part of their way of hedging their 
bets. I think much of our discussion about this topic 
undersells the government of Pakistan in terms of their 
inclination and proven willingness and ability to cut their own 
deals and in this case not just cut deals but do business with 
the Afghan Taliban, which they have, to put it quite bluntly, 
considered as one of their tools in their confrontation with 
India.
    Mr. Conaway. General McChrystal's call for a surge I think 
is focused on the military aspects of it, but shouldn't there 
be a civilian surge equivalent to that and is it rational to 
think that we have got State Department personnel available to 
do that kind of surge to meet the dual needs of the security 
and the governance improvements?
    Dr. Biddle.
    Dr. Biddle. Clearly, General McChrystal strongly favors a 
major increase in civilian resources in Afghanistan and I think 
everyone does. The issue is how do we go about providing it? Do 
we--are the resources being provided to the State Department? 
Is the State Department's hiring process up to the job of 
bringing in the kinds of skill sets that are need to do this? 
But I think there is no question but that the military command 
in theater desperately wants a substantial increase in civilian 
expertise in country.
    Mr. Conaway. General Keane.
    General Keane. I totally agree with that. And we had an 
excellent template in Iraq in the recent counterinsurgency 
there with the team that Ryan Crocker brought together and how 
they worked on increasing the ministerial capacity, worked on 
corruption and a number of other issues and certainly the 
political progress in the country leading to national and 
provincial elections and not the least of which was those 18 
benchmarks that the Congress of the United States insisted on 
them having. So there is a lot of work to be done there. If we 
don't do it, the military guy--they will default and they will 
try to do it themselves. And some of that they can do but a lot 
of it they can't.
    So they really do need some help. I have been encouraged by 
the Secretary of State in her comments about how she wants to 
clearly increase the commitment of the capacity of the State 
Department to help a counterinsurgency in a meaningful way to 
work to deal with governance and reconstruction, and clearly 
governance is a major issue, identified by General McChrystal 
in his support. So he needs to that help. It remains to be seen 
whether he is going to get that help or not.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Ms. Tsongas.
    Ms. Tsongas. Thank you very much for your testimony. I have 
appreciated very much your range of opinions.
    General, you have focused on, as has General McChrystal, on 
the need to grow the Afghan national security forces to a size 
that has never before been achieved; so that is a challenge in 
it and of itself. But going forward, how would we expect the 
Afghan government to be able to support a force of that size 
given it has no obvious source of revenues? If we look at Iraq, 
for example, you have the potential for oil revenue. How would 
they manage that and support that going forward assume they 
could even grow it to that point?
    General Keane. You are absolutely right. They don't have 
the Treasury to do it and that is one of the reasons why it did 
not grow to the level it probably should have grown to. That 
would have to come largely from our finances as well as other 
countries that are willing to provide it. But, listen, if we 
use that as a cost and a limitation, the cost of a U.S. soldier 
versus an Afghan is about 25 to one. So as we build Afghan 
soldiers, keep in mind, yes, we are going to pay for that. It 
is going to be considerably cheaper than it is for a U.S. 
soldier. And as we build that capacity, eventually we will be 
able to take those U.S. soldiers out and it will be a net 
savings for us financially.
    Ms. Tsongas. But it may require years of support.
    And I am curious, Dr. Biddle, if you have some thoughts as 
to how the Afghan economy can be developed to the point where 
it doesn't require American dollars even to support the Afghan 
national forces.
    Dr. Biddle. I don't think it is reasonable to expect that 
the Afghan economy is going to grow to the point where they 
will be able to support a governance infrastructure, civilian 
and judicial and military, sufficient to meet their needs. That 
was not the case in the 1930s or 1940s when we had relative 
stability in Afghanistan. Afghanistan has always been a ward to 
some degree of the international community, either their 
neighbors or great powers like Britain or the United States. 
The question is the magnitude of the support they will require 
from the international community and the political mechanism 
set up for the international community to manage this problem. 
I think it is important when we think about building up the 
Afghan national security forces to build into it a plan for 
building it back down again once the security threat goes down 
through a DDR process that makes it possible not to eliminate 
or liquidate the Afghan military but to downsize it without 
destabilizing the country when we get to the point where some 
settlement or series of settlements has reduced the threat to 
the point where a smaller force is possible. That kind of 
build-down process has long lead time items involved in it, 
like, for example, providing job training as part of the 
training regime for troops what they are brought into the 
Afghan security forces in the first place. We need to start 
planning for that now.
    I don't think, however, that because it is unreasonable to 
expect that of Afghanistan itself will be able to afford a 
government and a security structure large enough to keep the 
country stable that therefore the undertaking is hopeless and 
it shouldn't be undertaken in the first place. I do think we 
need to anticipate the downstream problems and the downstream 
need to downscale and to ensure some sort of international 
mechanism for keeping the Afghan state funded. But I think if 
we do that properly, it is not necessarily a hopeless 
undertaking.
    Ms. Tsongas. Is the cost of all that included in your 
calculations as to what a counterinsurgency strategy would cost 
this country or is that sort of an add-on cost down the way?
    Dr. Biddle. No, I think that is part--for example, much of 
what we were doing in Iraq during the time of our larger combat 
involvement there was involved in building up the Iraqi 
national security forces in ways that the Iraqi government was 
wasn't wholly funding itself. That is a direct analogy to the 
situation in Afghanistan. In the outyears, the kind of support 
for Afghanistan that will be required even after the insurgency 
ends is a different business and need not necessarily be funded 
entirely by the United States. I think we need a broader 
diplomatic mechanism for ensuring the proper provision of 
revenue to the Afghan government in the outyears.
    Ms. Tsongas. Thank you.
    The Chairman. I thank the gentlewoman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you all so much for joining us today. I 
really appreciate your candid and well thought-out statements. 
It gives us lots of information to ponder as we all look at the 
decisions that are before all of us concerning the efforts 
there in Afghanistan.
    I do want to focus some of my questioning on Afghanistan 
police and security forces. I think those are important parts 
of the whole effort there. Dr. Biddle, I want to capture some 
of your thoughts and ideas.
    On page 10 of your statement, you outline some of the 
challenges and the benefits of focusing on training rather than 
fighting, and you say ``training and combat are not meaningful 
alternatives in Afghanistan. The former requires the latter,'' 
and you also go on to say that ``proper combat advising and 
mentoring speeds things up but cannot provide an effective mass 
military instantly. In the meantime, someone must protect not 
just key population centers, but also the very mobilization 
infrastructure of recruitment centers, supply depots, bases, 
and transportation connections needed to create the new Afghan 
formations.''
    And my question goes to the point of in this development of 
these security and police forces, should it be the Department 
of Defense that does this training or should it be the State 
Department? It is my understanding that in General McChrystal's 
recommendations that he says in his initial assessment that the 
Afghan police training and mentoring program be transferred 
from the Department of State's Narcotics and Law Enforcement 
Bureau to Combined Security Transition Command-Afghanistan 
(CSTC-A). And I understand the military is ready to assume this 
mission.
    From your perspective, do you think the military should 
take over this activity from the State Department? And if this 
recommendation is approved from General McChrystal, do you have 
any recommendations for seamless transition with no disruption 
to training or mentoring operations, and with that do you see 
the need for an intermediary there to maybe make that 
transition smoother and to make sure that it is without, number 
one, delay but also without keeping up the effort to stand up 
this police and security force?
    Dr. Biddle. Police functions are traditionally thought to 
be central to counterinsurgency because they are the people 
that are on the ground in grassroots contact with the people 
already and have the most knowledge about the immediate 
environment. But the kind of policing that people talk about in 
the context of counterinsurgency isn't writing traffic tickets 
or even arresting drug kingpins, per se. It is closer to 
paramilitary activity. And, in fact, countries like Italy, for 
example, who have been involved in this activity in the past, 
often produce paramilitary organizations, constabulary forces 
that are substantially more heavily armed and equipped than an 
orthodox police force and that have training that includes 
self-defense in a higher threatened environment that is typical 
of counterinsurgency as opposed to the kind of peacetime 
domestic policing that we normally think about when we think 
about police.
    One of the reasons why I think it is not the right way of 
thinking about police training in Afghanistan to hand this over 
to metropolitan police officials from the West imported to 
Afghanistan for this job is because this is such a radically 
different environment than any of those officials will have 
lived in prior to that time. I think this is necessarily either 
a military police undertaking or a paramilitary training 
undertaking, and I think the proper way to organize and control 
it is through ISAF and the military command in theater.
    Now, as far as the administrative mechanics of handing off, 
I will leave that to those who are closer to the day-to-day 
administration of this problem than I am. The one point I would 
add to this, however, is there have been, in the past, serious 
challenges with coordinating different national contributions 
to training activities, especially for the police. It is very 
important that there be a uniform approach to doing this and 
that there be a degree of unity of effort in the way we train 
both the Afghan police and the Afghan military.
    Unity of effort is always complicated in a multinational 
counterinsurgency effort. It is especially problematic here. 
The management challenge I think is going to be at its greatest 
with respect to this business of coordinating different 
national efforts to assist in the training activity.
    Mr. Wittman. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    The Chairman. I thank the gentleman.
    The gentleman from my Mississippi, Mr. Taylor.
    Mr. Taylor. I want to thank all of you gentlemen. And 
General Keane in particular, welcome back and thank you for 
your service.
    In the unclassified McChrystal report, I was struck by how 
often the words ``corruption'' and ``narcotics'' jumped out. 
Having followed our efforts in Latin America where our presumed 
goal was to keep the FARC from creating a narco state in 
Colombia, it strikes me as strange that I haven't heard any of 
you gentlemen talk about the need or even a desire to eliminate 
narcotics in Afghanistan. And, again, what I sense is almost 
sweeping under the rug of the corruption. Unless those two 
things are addressed, I only see two outcomes. In the case of 
corruption, I don't see how the people can continue to have any 
sort of loyalty to Karzai. I am told by Rory Stewart and others 
that Karzai is referred to as the America bull, that once you 
get outside of the city, he really has no influence. I am told 
that his brother is one of the biggest dope dealers in 
Afghanistan. It is common knowledge in that country. So here is 
a guy who apparently is not controlling his own brother where 
narcotics are rampant, and having just as a nation having 
funded a very expensive but successful effort in Colombia, why 
is it that we are willing to coddle what apparently is a narco 
regime in Afghanistan? And I ask this in all seriousness.
    Secondly, if they don't address the corruption, which I 
think, in turn, leads to a people having no connection to the 
central government, then when we choose to leave, whether it is 
1 year, 10 years, 15 years from now, what is to keep the people 
who have a resentment against that corrupt government from 
getting rid of that regime then? And I will open that up to the 
panel.
    Dr. Biddle. I don't think that General McChrystal is 
remotely recommending that we coddle narcotics kingpins or----
    Mr. Taylor. I think he expressed the same concerns. That is 
where I got the concerns is from his report.
    Dr. Biddle. Indeed. And speaking for myself but I suspect 
for the rest of the panel, I absolutely share, A, his concern 
with the importance of--I will broaden it slightly to 
governance improvement. But, B, the centrality of the narcotics 
problem to the government's problem.
    Corruption per se is common in the developing world. 
Corruption on the scale we see it in Afghanistan today is not 
and that is driven in an important measure by the narcotics 
problem. The question isn't so much do we ignore it? Of course 
we don't. The issue is what do we do about it? The approach we 
have tended to take in the past has had a heavy emphasis on 
eradication. That for a variety of reasons hasn't worked very 
well, and I think policy in country is moving towards an 
emphasis on in the longer term developing the infrastructure 
needed for alternative crops to be economically viable and in 
the short term going after specifically--quite exactly the 
intermediaries in the process, the middlemen and the kingpins 
that are in fact making the great majority of the money from 
narcotics in Afghanistan. The farmer at the grassroots level 
isn't the primary winner from the narcotics problem in 
Afghanistan. It is the intermediaries.
    When we talk about using the leverage at our disposal to 
change governance in Afghanistan, I think one central dimension 
of that is using the leverage at our disposal to get the 
President--to get Karzai to crack down on some of the more 
egregious narcotics kingpins in the country and probably 
including but certainly not limited to Ahmad Wali, Karzai's 
younger brother.
    Mr. Taylor. I have not heard that articulated by anyone 
either within the Pentagon or within the Administration as 
being a goal of our Nation right now.
    Dr. Biddle. Well, again, I won't speak for government. 
Certainly for myself when I say governance improvement, that is 
an absolutely critical component of it. No question about it.
    Mr. Taylor. General Keane.
    General Keane. Yeah. Well, in my statement, I did talk 
about Karzai's corruption and how we needed to deal with that. 
Certainly his involvement in the narco trafficking is certainly 
an issue. His brother is very much involved in it in the 
Kandahar province, and many people in his administration are 
involved in it.
    General McChrystal is seized with it--and I think here is 
the reason. Much of the money that comes--that the Taliban get 
a fair amount of that money is coming from this issue. And we 
have got to go after this money. And I think what we will see 
is a--depending on the President's decision. But if he puts in 
play a full counterinsurgency strategy, you are going to see a 
pretty tough hand dealing with corruption in general. Not able 
to stamp it all out. I agree with Steve; it is endemic with the 
culture to a certain degree. But we can be very specific about 
people whose hands are dirty and what to do about them. That is 
number one.
    And then go after the money. There are networks themselves, 
and we have intelligence on this. We can go after these 
networks themselves. I am talking about killing and capturing 
and going after that money and breaking that system down, so it 
is not being funded--it is not helping to fund the insurgency, 
which it is currently doing, which also was the issue in 
Colombia and South America.
    So I believe part of this counterinsurgency strategy is 
clearly to put in play an element to deal with that very issue 
that you are talking about. And I am convinced they are going 
to be very aggressive about it. Not with production in terms of 
poppy fields, but with the cells that are enabling it and where 
the money is the leaders who are involved in it. I think that 
is what we are going to go after.
    The Chairman. I thank the gentleman.
    The gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    One of the issues that seems necessary to have a successful 
counterinsurgency strategy at the end of the day is governance. 
And the question is, is the Afghan government capable of the--
has the capacity to do things like the rule of law and do basic 
functions whereby the people of Afghanistan see that that is a 
better choice for them, that there is a marginal difference to 
support the government versus to support the Taliban? And I 
have got a couple of questions on that.
    Number one, do we need--I hate to use the word--dumb down 
our expectations of the government, but did we superimpose a 
representative form of government, a Western style form of 
government that doesn't reflect the political culture of the 
country? And do we need to visit something that is more 
realistic? And let me focus on that question first if you could 
look at that question first.
    Dr. Biddle. I think certainly the original constitution was 
substantially over-centralized, and I think, unquestionably, 
there is a trend in theater at the moment towards a 
decentralization of authority from the national level in Kabul 
down to at least the provincial level and in important ways to 
the district level as well. That will almost certainly be part 
of the governance process moving forward, is to empower more 
local officials in closer contact with the population and seen 
as more legitimate by the population in ways that it has not 
been the case in the past.
    I think when it comes to things like rule of law in 
particular, part of that process of decentralizing government 
authority in Afghanistan will probably include some kind of 
hybrid between a traditional judicial system emphasizing 
village shuras and other collaborative methods of conflict 
resolution and dispute adjudication that have existed in 
Afghanistan for centuries with a formal government legal system 
in which you have neither a completely tribal system of 
justice, nor a completely government system of justice, but one 
in which an important subset of disputes before communities are 
resolved locally, another subset, major felonies, for example, 
are handled by the government, official, formal government 
system.
    That is, I think, almost certainly the direction that 
governance efforts in Afghanistan are going to go. How far they 
go, how many of the current authorities that are vested in 
Kabul are decentralized in the provinces in the districts is 
where the issue is? That I don't think has been resolved yet. 
The direction, however, I think is clear.
    General Keane. The Taliban's progress certainly is being 
made in the rural communities and away from the major cities. 
And they set up a shadow government to do all of that. They, in 
many cases, because there is a lack of the rule of law, there 
is no way to arbitrate the differences that people all over the 
world have in disputes. They set up their own Shari'a court 
system to deal with that.
    So that has to be replaced, in my view, with something that 
has some legitimacy. The problem we have with the current 
constitution is it allows the president to make all of those 
appointments himself. And at some point--it is unfortunate. I 
think at some point we need to get that to a point where the 
people will be able to elect their own officials. That is not 
in the near term. That is down the road. But it is a problem 
because it has led to ineffectual government at the lower 
levels, patronage system to a fault, and none of that would 
surprise anyone.
    But those kind of improvements have got to be made. And our 
emphasis--we have a tendency to talk about Karzai because of 
the national vote and his illegitimacy as a result of that and 
the corruption, and I did in my statement as well. But what 
Steve is talking about here is really crucial to the success of 
Afghanistan in terms of its stability because most issues in 
Afghanistan are really down at the local level where the people 
are. And we have to provide them through their own mechanism a 
much more responsive form of government there that will attend 
to their needs, and it has to have some connection obviously to 
a central government for it to be able to work.
    Dr. Pillar. In addition to being decentralized, effective 
governments in Afghan terms would be characterized by a lot of 
deal making, not just casting votes in a legislature or a 
provincial council, but the traditional way, going back to 
those years of stability that were alluded to before, up to the 
1970s, was one of bargaining and deals among groups defined in 
terms of local power and ethnicity and sectarian identity.
    Mr. Coffman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Between al Qa'ida and the Taliban, which entity has the 
most structure, the ability to govern? Which entity has the 
most financial resources that can be mustered, and which one 
currently has the, for lack of a better word, military force? 
And I would like a real short answer on that.
    General Keane.
    General Keane. Well, they are very different organizations 
to be sure. The Taliban in Afghanistan and also in Pakistan has 
a local focus and therefore considerably more structure 
associated with that because it is dealing with the communities 
that already exist in those countries, considerably more cells 
and more networks.
    At the same time, they are not a homogenous organization to 
be sure. In Afghanistan, as an example, there are three major 
groups involved, and even in those groups, there are splinters 
from them.
    The al Qa'ida has regional and global objectives that 
differentiate them certainly from the Taliban entirely. We have 
hurt the al Qa'ida rather significantly in terms of its--the 
amount of money that it has available. I no longer see those 
classified reports to be able to tell you where they are. All I 
can tell you is that we have--we have made a significant impact 
on them in terms of their financial treasures, with the help of 
a lot of other countries in the world in doing that.
    And I think I will just--in terms of military force, both 
the Taliban in Afghanistan and the Taliban in Pakistan are--
both of those forces are larger than the al Qa'ida that is 
sitting in--up in the tribal areas. And also they have a 
different focus.
    Mr. Johnson. So would it not be correct to say that if the 
Taliban were able--were successful at running us off, if you 
will, and then retaking control of Afghanistan, it could not be 
said that they may be in a position of being overthrown by the 
al Qa'ida; and then al Qa'ida would have more than just a 
sanctuary, they would control a country? Is that something that 
is a reasonable possibility?
    General Keane. In my view, no. If I understood what you 
were saying, I think that the al Qa'ida would welcome the 
return to power of the Taliban. While their interests are 
different, they certainly have a common foundation in terms of 
what their belief systems are. And they would see them as an 
ally, and they would have more than a cooperative relationship. 
I don't see the al Qa'ida as doing anything to change the 
nature of the Taliban rule.
    Mr. Johnson. That belief system that they both share, what 
is that?
    General Keane. In a general sense, I think it is an 
ideology that goes many centuries back in terms of the 
supremacy of Islam and what it represents to the world, and I 
think you are probably pretty familiar with all of that.
    Mr. Johnson. Right. So continue with what you were saying 
prior to me interrupting.
    General Keane. In terms of----
    Mr. Johnson. Taliban being overthrown by al Qa'ida.
    General Keane. No. I don't see any scenario that would 
bring those forces to clash, given the cooperation that they 
currently have. I think while they are different people to be 
sure, the Afghans, the Taliban in Afghanistan are Afghans----
    Mr. Johnson. I have 10 seconds, let me ask----
    General Keane. I think you are on the wrong track thinking 
they are going to fight each other.
    Mr. Johnson. Do either one of you disagree?
    Okay. Thank you.
    The Chairman. I thank the gentleman.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    General Keane, first of all, thank you for your service.
    And thank you all for coming today.
    You talked about the costs. You were asked about the costs, 
and you said the costs would come largely from the United 
States. Do you worry about our overall fiscal condition, and 
are you concerned that this will drain money from other 
projects, proposals and military needs?
    General Keane. Well, I don't want it to come overwhelmingly 
from the United States. As I said in my statement, I would 
hope, if we are going to make a decisive decision to commit to 
the stability of Afghanistan as part of the United States' 
national interests and to further help stabilize the region, we 
are not the only country that has an interest in that. 
Certainly the region has interest in it, and certainly the 
international community has interest in it. And I think it is 
time to get others to share in the largesse in terms of our 
commitment. But clearly the amount of money that we are putting 
in now is disproportionate to others.
    Ms. Shea-Porter. It is.
    And in the interest of time, I will say it is very 
concerning to us, who have to look at every dollar that this 
country is spending right now, to decide that we will be the 
ones because nobody else will, or for whatever reason, to do 
that.
    And Dr. Biddle, you said there has to be some kind of 
international mechanism to pay. Can you say what that 
international mechanism would be? And was that really a 
realistic statement since we are now eight years into it, and 
it doesn't seem as if there is an international mechanism or 
even indeed an international will to create a mechanism?
    Dr. Biddle. I don't think we have been pursuing it 
particularly aggressively through the first eight years in 
terms of this conflict. But I think in terms of looking out 
towards the end-game solution that we would like for 
Afghanistan, I think we would want to embed Afghanistan in some 
sort of regional diplomatic framework, a contact group, a 
collaborative mechanism of some kind in which Afghanistan's own 
neighbors who all have a very central security stake in what 
happens in the country and great powers like ourselves, but not 
limited to ourselves, who have a stake in what happens in 
Afghanistan have a collaborative mechanism in which we can 
exchange information, engage in----
    Ms. Shea-Porter. Hasn't that existed? Hasn't that existed? 
I mean, one of the things that I appreciate about the President 
right now is, after eight years, to have an intense eight-week 
review to make sure going forward.
    But don't you think the Bush Administration tried to bring 
other countries on board? Are you saying that they didn't try 
to convince people there needed to be an international 
mechanism?
    Dr. Biddle. I am saying the Bush Administration didn't 
pursue it very aggressively, A.
    And B, the interests of the parties in this kind of 
arrangement change as a function of the situation on the ground 
in Afghanistan. In a situation in which security in Afghanistan 
is declining and nobody appears to be in a position to deal 
with it, the interests of any of parties in doing what is going 
to look to them like the unilateral intervention to save a 
failing situation creates serious disincentives for any of them 
to act.
    Ms. Shea-Porter. I am sorry to interrupt. We only have five 
minutes. I would say that, considering what happened in 2001, 
if they were going to step forward and they felt like they were 
compelled to help, that might have been the time. I have----
    Dr. Biddle. In 2001, we actively rejected international 
assistance.
    Ms. Shea-Porter. Right. But what I am saying is that, when 
we decide to reach out, it is not as if Afghanistan hasn't been 
a huge problem and part of the national/international 
conversation for many years now.
    But I also wanted to ask you, I did want to touch on the 
drug addiction. But from a slightly different perspective of my 
colleague. I have been concerned with--and I am not really 
sure, but I think it is about 15 percent. Does that sound 
right, for addiction? At any rate, the addiction rate is high 
in Afghanistan, and how are we going to motivate--and I don't 
know what the percentage is for men who are serving, but do you 
have any idea? Are we trying to get police and Afghan national 
police to do something they are not able to do, and how large a 
problem do you think the addiction is factoring in?
    And what about the populace? How are we going to--even in 
our own country, people who are suffering from drug addiction 
have problems that would prevent them from actually engaging in 
some of the issues we are talking about today. What do you see 
as a solution for that? And do you think that we need to solve 
that problem first before we actually take care of the other 
problems?
    Dr. Biddle. I assume you mean the addiction rate in the 
Afghan National Security Forces?
    Ms. Shea-Porter. No, I am just talking about I think the 
populace for the number of Afghans. I have no idea, and I am 
asking you if you have any idea how large a problem this is for 
the Afghan police, for example, for those who are in charge of 
security?
    Dr. Biddle. I don't consider myself an expert in drug 
policy per se. The parts of counter narcotics in Afghanistan 
that I have looked at are primarily those that affect the 
insurgency more directly. So I will defer to others on the 
question of dealing with addiction in the civilian population 
at large.
    Ms. Shea-Porter. Do you think we should ask that question 
before we do anything to find out if the men that we are going 
to depend on to help Afghanistan stand up have another, more 
essential, critical problem right now?
    Dr. Biddle. I think with respect to addiction in the Afghan 
National Security Forces, yes, absolutely. We have to do some 
of the same things there that we did with our own military 
after Vietnam in which narcotics were a problem for us.
    Ms. Shea-Porter. Have we looked at it?
    The Chairman. I thank the gentlelady.
    The gentleman from North Carolina, McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Thank you, gentlemen for your testimony.
    And, General Keane, it is especially good to see you today. 
Thank you for your many years of service to our great United 
States Army and for always being an inspiration for us who 
remember well your service at Fort Bragg and have followed your 
career since then over the years.
    I especially am impressed with your written statement and 
wanted to ask you three specific questions that you may be able 
to answer succinctly or can expand upon.
    Number one, on page 4, midway through the page, you speak 
about how the Afghan National Security Forces is currently 
projected to grow to 234,000 by 2010 and needs to grow to 
400,000. And that will take until 2013 or 2012 at best. I have 
also read some statements in recent days challenging whether 
that is even an achievable number. Do you believe that 400,000 
is a realistic number that could be achieved, or is it more of 
an idealistic number?
    General Keane. Oh, I think it is a realistic number. I 
mean, it has to do with our level of commitment to this. And 
also breaking the paradigm from the past where we put a lot of 
obstacles, that are out there, but we made them formidable and 
those were high illiteracy rates in terms of the challenge of 
training and the difficulty of finding leaders. And as I said 
before--I mean, stay focused on what the goal is here.
    We have a near-term problem that we need to solve, and 
security is the issue. And these forces have to be better than 
the other Afghans that they are fighting. And as we grow the 
size of them, they will operate largely side by side with us 
for a period of time. And out of that will grow a better force.
    All of that said, we should put in place an infrastructure 
to sustain the quality and improve the quality of that force 
over time with education and other things that we know how to 
do. But we can't do all of that at once and then wait for a 
force to come out the other end years later. That is 
impossible. Not when what we have in front of us is a few years 
to solve the problem.
    Mr. McIntyre. Second question I wanted to ask you, also on 
page four of your testimony, at the bottom, the last sentence 
says that as these forces conduct side-by-side operations, 
which you were just alluding to, with U.S. and NATO forces as a 
matter of routine, similar to what we did in Iraq, their 
proficiency increases exponentially, which I think is an ideal 
and a great statement. My concern is and what if, if the NATO 
forces do not cooperate as a manner of routine, we know that is 
part of the concern right now, is getting them to cooperate. 
Does that then undermine the entire premise here?
    General Keane. To be frank, I was using NATO forces there 
as a generous term. I mean, the truth of matter is that those 
conducting combat operations are few as opposed to the 42 
nations that are contributing something in a uniform.
    Make no mistake about it, we are Americanizing this war. I 
don't usually want to use that term for obvious reasons, but 
that is a fact. And most of those operations will be conducted 
side by side with U.S. forces and a few other NATO countries, 
and you are familiar with who they are.
    Mr. McIntyre. And I think that is going to be the great 
challenge for us, when the statement that you just made, we are 
Americanizing this war, is, how long will the American public 
give the support depending on how long and how quickly these 
goals can be accomplished? So I appreciate you laying out these 
goals, and I think that is where the challenge for all of us 
is, is can this be done in a reasonable time frame so it 
doesn't drag on and on and on?
    And the last--rest of the time I have left, I have a third 
question for you. The top of page seven of your testimony, you 
talk about governance at the local level, particularly the 
district and provincial level and assist with economic 
development, which you just alluded to in your statement and 
also orally. When you say ``and economic development,'' are you 
talking about the infrastructure, like water and sewer? Are you 
expanding that to also mean schools, roads, health care, all of 
the above, or how much of the above? I know that is the 
challenge we face domestically, is, in extremely rural and 
poverty-stricken districts like many of us represent and are 
right near Fort Bragg, we don't have the substantive type of 
health care. We have problems with schools. We have concerns 
with infrastructure and water and sewer here at home.
    So that is part of the challenge we also have is, is 
deciding how much are we going--how much do we really need to 
do in Afghanistan to sustain what our great superior military 
is doing, and I guess I am wondering, how broad do you mean 
assist with economic development when you use that phrase?
    General Keane. Yeah. I only meant that to mean as it 
impacts the people more at the local level. Most of our 
nonmilitary efforts in Afghanistan to date have been involved 
largely in the reconstruction effort where you mention in terms 
of large projects. I think while some of that is important, the 
much more important issue is governance, and the much more 
important issue is some of the things that we need to do at the 
local level to assist the people with the quality of their life 
experience. And as we have found out in Iraq, that doesn't 
have--it is not necessarily a major, major event in terms of 
what that is doing in terms of financial expenditures or major 
engineering and construction projects. A schoolhouse, other 
things to make life better for them are things that are very 
helpful and also gives the local leader who we are supporting 
some credibility with his own people and starts to break this 
umbilical cord with the Taliban, who are also doing similar 
things.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from California, the ranking member, Mr. 
McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    And thank you for--I think this has been very enlightening, 
and I appreciate you being here, and I appreciate your 
testimonies.
    Dr. Pillar, in reading your conclusion, you basically say 
expanded military effort would be unwarranted; at best, the 
difference such an effort would make in the terrorist threat 
facing Americans would be slight, and at worse, the effort 
would be counterproductive and not reduce the threat at all. 
Even at its best, the benefit would be outweighed by the 
probable costs, especially in American lives and limbs and 
monetary resources, U.S. equities. Pretty dismal.
    Do you have an alternative? Let me ask. Would you say we 
should keep the status quo, keep the number of troops we have 
there now, or would you just pull out altogether? What would be 
your answer?
    Dr. Pillar. As the President's spokesman made clear, 
pulling out altogether----
    Mr. McKeon. I want to know your opinion based on your 
statement here.
    Dr. Pillar. Well, I would identify myself--well, if I could 
just borrow on someone else's proposals. Richard Haas had a 
piece in the Washington Post, you may have seen, over the 
weekend in which he lays out the continued important and useful 
things that we can do at our current force levels. Much has 
been said in the hearing this morning about training the Afghan 
forces, armed forces and police. He would, and I would support 
this position, shift the emphasis away from our direct combat 
operations to training. There is much more to be done, and 
again, this is something else that has been touched on in this 
hearing in the area of economic development and infrastructure.
    And I would certainly place heavy emphasis on the 
international diplomatic front. There have been countless 
issues touched on here this morning that affect many other 
countries at least as much as ourselves. For example, the 
narcotics issue that a couple of members have asked about, 
Russia and Iran both have major addiction problems that involve 
overwhelmingly heroin from Afghanistan. That is just one of 
many ways, not to mention the other security related ways in 
which we can----
    Mr. McKeon. Most of those things you mentioned, they are 
addressing. Maybe not the way you would like or maybe not as 
much as you would like, but they are addressing those issues. 
So, basically, then, it sounds like you would be for the status 
quo.
    Dr. Pillar. Well, I think with the kind of----
    Mr. McKeon. Not increasing troop, not reducing troop, just 
kind of doing what we are doing, maybe with a little change of 
emphasis.
    Dr. Pillar. It is not just doing what we are doing, but 
certainly with more of a change of emphasis in terms of the 
Afghanization of the security force structure and certainly 
more vigorous efforts with regard to the international 
diplomacy.
    Mr. McKeon. But you would not be for pulling out? As dire 
as your assessment is, you are not for pulling out?
    Dr. Pillar. I am not for precipitously pulling out. I would 
envision a glide path that is very similar to what we are 
facing right now with Iraq.
    Mr. McKeon. Well, you would support pulling out in the next 
year or two?
    Dr. Pillar. Iraq, with that comparison, we are talking 
about the next couple of years, yes, sir.
    Mr. McKeon. Okay. You all mentioned I think in your 
testimony that you said, probably, our main--the main reason we 
should be there is for national security, and we looked at 
different areas of national security. It seems to me that when 
we pulled out of Vietnam, we kind of set a pattern. And I think 
that people now kind of question our staying power.
    I mean, we have been there eight years. That is a long 
time, and that does take a lot of staying power. And I don't 
know exactly where the American people are on this. I think 
they are probably kind of drifting because they haven't heard 
much from the White House as to why we are there or why we 
should be there, and they really don't understand--I think most 
of them don't know where Afghanistan is and don't see it as a 
national interest.
    But the question I have is, isn't it in our national 
interest--would it be against our national interest to just 
pull out? Because I know when I talked to General Nicholson 
over there in August, he said his Marines every day are getting 
asked, when are you leaving? When are you leaving, because the 
Taliban say you are going to be gone, and they are worried 
that--you all have mentioned in your testimony--that when we 
leave, the ones that have helped us are going to get killed, 
which is what happened in Vietnam. And so how do you think 
leaving, even not precipitously, say in two years, what are we 
going to leave behind, and what is that going to do to our 
national interests?
    General.
    General Keane. Well, I mean, look it, even with the forces 
we have there now and with the current 134,000 Afghan National 
Security Forces and 100,000 NATO forces, the Taliban has the 
momentum. They have gained the initiative. If we just continue 
that, there is nothing to stop that momentum. That will 
continue. In other words, they will gain more influence over 
the people, and they will gain more territory to have that 
influence. That is the momentum they are on. And the level of 
violence will continue to increase. That is the reality of 
that. If we took those resources away that we have, that we 
currently have, that is just going to accelerate all of that to 
eventually, well, they will regain control of the country. That 
is the inevitable path.
    Mr. McKeon. What does that do to our standing on the world 
scene? Why would people want to be an ally of ours?
    General Keane. Certainly there are huge implications for 
our allies, and some of our allies' relationships are tenuous 
to begin with, like in Pakistan and other places. It would have 
a dramatic adverse effect, and it would also have a dramatic 
effect on our adversaries, in terms of encouraging them and 
embolden them to do other things.
    Look it, we did draw a line here. We drew this line, and we 
said this was important to us. And we stated the reasons for 
that. It was obvious at 9/11, and for many of us, those reasons 
are still there in terms of national interests. And we tried to 
explain why that is, at least Steve and I have, in terms of its 
impact on Pakistan. So we have drawn a line. To go back and 
erase that line right now will have detrimental impact on 
Southern Asia to be sure and the radical Islamic movement and 
its march that has taken place in that area, plus what one 
would do to encourage adversaries in other parts of the world 
as well.
    Certainly one of the things that has happened to us and 
what the radical Islamists have been throwing in other peoples' 
faces for years is Lebanon, Somalia, no response to the Cole, 
no response to the Khobar tower. I mean, this is in their 
literature and not ours in terms of this is a country that 
lacks moral character; this is a country that will not shed its 
blood, et cetera.
    Now, we have changed all of that since 9/11. We have taken 
that issue away, and we have defeated that movement in Iraq, 
and we are drawing a line here in Southern Asia as well. So I 
think there is a lot to be said for what we have done and what 
we are doing.
    Dr. Pillar. If I may comment on two of the key questions 
that General Keane has raised, and I do have to disagree.
    One, it is by no means inevitable that the Taliban would 
take over. The Taliban swept to power in 1994 on a wave of 
sympathy and support from the Afghan people who were fed up 
with the civil war among the warlords that had persisted after 
the Soviet-supported Najibullah government was overthrown. They 
were welcomed.
    The Taliban today is far, far less popular. In fact, they 
are extremely unpopular with the overwhelming majority of the 
Afghan people, who knew what they lived through during the 
period of Taliban rule.
    What will happen when we withdraw is not something we can 
predict with any certainty. The most I would say is we--deals 
will be struck in the traditional Afghan sort of way. I think 
it is far from certain that the deals will be shaped in a way 
that the Taliban will have the upper hand.
    The other very important question that you have raised, Mr. 
McKeon, is about the broader effects on how U.S. credibility is 
seen, about who is seen as winning and losing all around the 
globe. These were, of course, issues that were raised after 
Vietnam.
    There has been academic research on this. I would commend 
the work of Professor Daryl Press of Dartmouth, who has shown 
looking back through history that other countries and other 
actors do not calculate our degree of commitment or credibility 
to uphold our continuing important interests by whether or not 
we pulled back from or pulled out of peripheral interests. That 
is just not the way other actors, including our adversaries, 
judge our commitment or our will.
    We would not judge the commitment or the will of our 
adversaries that way either. If we saw one of our adversaries 
pulling back from where he had a losing hand, that doesn't make 
us--that doesn't lead us to deceive ourselves that the same 
adversary would be any less determined to uphold his interest 
elsewhere.
    So I really don't think that is damage that would justify 
our continued staying where we have--as the general put it--
drawing the line.
    Mr. McKeon. We can probably debate that point for a long 
time because what I have seen is, people react as individuals; 
countries tend to react the same way. And it seems to me that 
we go to war when we are in a weakened position, and how people 
perceive us is if we are willing to stand for the things that 
we stand for, we are stronger. If we back away, we are weaker, 
and that seems to me that, every time we have done that, we 
face the consequences.
    Thank you, Mr. Chairman.
    The Chairman. I certainly thank the gentlemen.
    Let us go back to basics before we close our hearing.
    Why is it important that our efforts in Afghanistan be 
important to our national security? Why should we have our 
efforts in Afghanistan tied to our national security?
    Dr. Pillar. Mr. Chairman, as I tried to begin in my own 
statement, I think the bottom line here is protecting the 
American people from threats of harm, particularly from 
international terrorists. That is what got us into Afghanistan 
in the first place. And I think that is the overwhelming first 
reason, even though there have been other reasons deduced here 
in the course of this morning.
    Dr. Biddle. There is an old distinction between interests 
and vital interests, where vital interests are usually thought 
to be those central enough to secure that you would use force 
for. And that is the distinction I would draw for Afghanistan. 
We have a wide range of interests there. There is a much 
narrower set of things that are worth spilling blood over, and 
those involve the potential threat of downstream violence 
against America and Americans. And Afghanistan, in my view, 
largely because of its proximity to Pakistan poses the 
downstream threat of violence against America and Americans, 
and that is what makes it a national security interest for us.
    General Keane. I would say the same; just a stable 
Afghanistan is in our national interest. We clearly do not want 
a sanctuary there. We can argue over whether one would get 
there or not. And clearly, there is a relationship between the 
stability of Afghanistan and the future stability of Pakistan 
with nuclear weapons, with a raging insurgency already in place 
with the al Qa'ida in Pakistan, aiding and abetted by Pakistani 
Taliban and also to a lesser degree, Afghanistani Taliban. We 
have drawn a line for national security reasons not to let 
Afghanistan destabilize because of what its consequential 
effect would be on the security of the American people, and I 
think it makes sense.
    The Chairman. Another basic question we can close our 
hearing with, how do we explain to the American people what 
success is?
    General.
    General Keane. I think that is a great question. And I 
don't believe that by making an increased military commitment 
to Afghanistan, by definition, this is an open-ended commitment 
that goes on for a decade or so. I mean, a stable Afghanistan 
is what we are seeking, where its own national security forces 
are able to protect its people and has a legitimate, stable 
government as well. I think those things are achievable, and 
they are achievable more in the short term than in the long 
term, in my view. So the growth of the Afghan national security 
forces is a huge issue for us, just as it was in Iraq.
    And as we begin to turn the momentum around--and I think we 
can do that once we get the proper resources there. And we will 
start to see some of this in 2011 for sure and maybe a little 
bit by the end of 2010, and we start to begin to have the 
Afghan national security forces take over from us. So the end 
state for us certainly is not necessarily a major political 
reconciliation. Our end state in terms of our U.S. military 
involvement will be turning over the security operation to the 
Afghan national security forces because it is now within their 
means to cope with it, just as it is happening in Iraq.
    Commensurate with that, I do believe we will make some true 
progress. Once we turn momentum, many of these Taliban leaders 
who are in it for different reasons will want to be on the 
winning side and will see their political opportunities with 
the success that has taken there. And some reconciliation will 
start to take place. So that is the way I would describe to the 
American people, a stable Afghanistan where its national 
security forces are capable of protecting its own people, and 
we are going to get it to that point so we can pull our forces 
out of there.
    The Chairman. Thank you.
    Anybody else?
    Dr. Pillar. Yes, Mr. Chairman, that is an excellent 
question. And I don't think it can be satisfactorily answered.
    For the American people, the internal political makeup of 
Afghanistan is not what is important or should be important, in 
their view. It is ultimately our own security here in the 
United States and American interests abroad. And there is not 
going to be any one mark of success, any one mark of victory 
where either the current or future President can say, all 
right, we have achieved our objective.
    Even if General McChrystal achieves all of his objectives 
as he has laid them out in his strategy, al Qa'ida is still 
going to be out there, in Pakistan, in the unsecured areas of 
Afghanistan, and all the other places they are in the world, 
emitting their propaganda. And all it takes is a single 
terrorist attack to emphasize what will be their continued 
point: You did not defeat us, despite all your effort in 
Afghanistan.
    Dr. Biddle. Success in war normally means you secured the 
interests that led you to go to war. And if those interests are 
essentially twofold, that it not become--Afghanistan not be a 
base for attacking us and it not become a base for attacking 
Pakistan, success means an Afghan government of whatever kind, 
of whatever composition, of whatever system that has enough 
control over its territory and population to prevent either of 
those two things from happening. And there is a wide range of 
possible specific makeups of an Afghan government that could 
achieve that, many of which will look very imperfect from our 
perspective.
    Iraq is in some ways an interesting analogy in that the 
degree to which Iraq has been a success is controversial, but 
nonetheless, the central U.S. interests in Iraq of the war not 
spreading to its neighbors and genocidal violence not taking 
place within Iraq's borders, those two interests as of today 
are met in Iraq through a political makeup that is not what I 
think anyone anticipated in 2006 or when the surge began.
    So I think, with respect to Afghanistan, the point to bear 
in mind is not that success is achieved only if we create a 
democracy that looks like x other country in Afghanistan; 
success I think is achievable if we have met our aims and those 
are, at the end of the day, relatively undemanding aims that 
permit a wide variety of different specific political solutions 
in Kabul.
    The Chairman. I thank the gentlemen.
    Are there any other further questions?
    If none, we wish to thank our panel for the excellent 
testimony. This has been one of the best hearings we have had.
    Adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            October 14, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 14, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 14, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. We heard from General Keane during the hearing, state 
the war in Afghanistan is a war of ``ideas and desires.''
    Dr. Pillar in his testimony stated ``the majority of the 
``Taliban,'' have little or no identification with the extreme ideology 
of the principal Taliban leadership.''
    Dr. Biddle stated ``there is a hard core of committed Islamist 
ideologues, centered on Mullah Omar and based in Quetta. But by all 
accounts much of the Taliban's actual combat strength is provided by an 
array of warlords and other factions with often much more secular 
motivations, who side with the Taliban for reasons of profit, prestige, 
or convenience, and who may or may not follow orders from the Quetta 
Shura leadership.''
    It is understood Afghanistan is a complex environment with a wide 
variety of bad actors with separate motivations. However, with the role 
religion plays in the lives of Afghans, are we discounting the role it 
could be playing in the insurgency?
    What would each of you identify as the top three motivations 
fueling the Afghan insurgency?
    General McChrystal has emphasized an extremely robust COIN 
initiative as the best strategy moving forward and our best chance for 
success. Should this strategy address the ideology piece and if so, 
how?

    General Keane. [The information was not available at the time of 
printing.]

    Dr. Biddle. This memorandum is in response to the question for the 
record submitted by Rep. John Kline following the House Armed Services 
Committee hearing on ``Afghanistan: Getting the Strategy Right'' 
(October 14, 2009). Rep. Kline asks what are the three top motivations 
fueling the Taliban insurgency, what role does religion play in this, 
should U.S. strategy address the ideological dimension of those 
motivations, and if so how?
    What we call ``the Taliban'' is actually a heterogeneous collective 
consisting of many different factions with different motivations. Hence 
there is no single answer to the question as posed, but instead as many 
different answers as there are factions.
    For example, the Quetta Shura Taliban (QST) faction, centered on 
Mullah Omar and based in the Pakistani city of Quetta, is motivated 
chiefly by ideology. They wish to return Afghan governance to the 
system they imposed in their previous rule (the QST leadership are the 
survivors of the pre-existing regime the U.S. toppled in 2001). This 
system is based on a harsh theocracy with strict Islamist Sharia law, 
an intrusive state apparatus designed to enforce a conservative 
interpretation of virtue among the population, and a thoroughgoing 
exclusion of Western ideas, practices, and mores. (Taliban ideology is 
thus a call for government to mandate a particular form of religious 
practice, but it should be emphasized that this is not mainstream 
Islamic doctrine, and there is no inherent connection between Taliban 
Islamist theocracy and Islam as a religion: the overwhelming majority 
of Muslims worldwide, and in Afghanistan, reject the Taliban's 
interpretation of the faith.) Secondary motivations for individual 
members of the QST surely include hopes for personal power and 
authority in a restored Taliban government, tribal and ethnic 
rivalries, hatred of Americans and other foreigners, and fear of 
retribution at the hands of erstwhile colleagues were they to defect, 
among other contributing factors. But for the QST, ideology is 
especially important.
    For other Taliban factions, ideology is much less central. The 
Hezb-i-Islami Gulbuddin (HiG), for example, centered on the warlord 
Gulbuddin Hekmatyar, is motivated chiefly by the prospect of money, 
power, and influence. The HiG are willing to accept Taliban ideology as 
a price of alliance with a force they find tactically useful in 
establishing power and authority in as much of Afghanistan as possible 
(and especially their traditional strongholds in the Afghan northeast), 
but for them ideology is closer to a means than an end.
    The Haqqani network (HQN), centered on the warlords Sirajuddin and 
Jalaluddin Haqqani, is probably somewhere between the QST and the HiG 
ideologically. The Haqqanis have traditionally sought personal power 
and influence (especially in their traditional homelands in east-
central Afghanistan), but have grown more radical in recent years 
through some combination of deal-making with the QST, ideological 
positioning to attract radicalized graduates of Pakistani Madrassahs 
(religious schools) as foot soldiers, and possible religious or 
intellectual evolution on the part of the HQN leadership.
    For U.S. strategy, two central insights follow from this. First, 
the importance of ideology as motivation for the Taliban varies, and is 
central only for a few factions (and especially the QST). Second, and 
perhaps most important, the primary ideology among those factions who 
are ideologically motivated is one that most Afghans decisively reject. 
The QST's ideas are extremely unpopular with the Afghan population at 
large, who already understand them and overwhelmingly reject them. 
Afghans know what the QST is offering ideologically--they lived with it 
every day during the Taliban's previous rule. And repeated surveys have 
shown no significant sympathy for a return to Taliban rule among 
Afghans. This is an important advantage for us in the conduct of the 
war, and provides an important basis for hope that we can meet our aims 
in the war.
    There are things we can do in our information strategy for the 
theater to exploit this advantage more fully, such as emphasizing 
wherever possible the history of Afghan life under the Taliban and 
reminding Afghans of its cruelty. (David Kilcullen suggests other 
useful possibilities as well in his book The Accidental Guerilla: 
Fighting Small Wars in the Midst of a Big One, esp. pp. 58-59, 109-
114.)
    But the central challenge in Afghanistan today is not to persuade 
Afghans to reject the Taliban's ideology: they already do. And an 
information campaign to clarify the superiority of the Afghan 
government's ideology to the QST's would probably not convert many of 
today's Taliban--most of whom are cynics who pursue worldly self-
interest with little regard for ideology anyway (the minority who are 
motivated chiefly by ideology, moreover, are typically highly committed 
extremists, such as the QST central leadership, who are unlikely to be 
persuadable). Instead, the central challenge today is twofold: first, 
to provide Afghans the security they need to hold out against an 
ideology they already dislike; and second, to provide Afghans a viable, 
meaningful alternative in the form of a non-Taliban government which 
can deliver practical vital administrative services at the grassroots 
level, and especially disinterested justice. General McChrystal's 
strategy is focused on precisely these two key requirements: security 
and governance reform. This is not to argue against improvements in our 
information strategy and public diplomacy to highlight the Taliban's 
ideological weaknesses. But it is to suggest that the higher priority 
is properly security and governance, as our current strategy assumes.

    Dr. Pillar. The motivations of the armed opposition in Afghanistan 
vary significantly from one part of the opposition to another. Keeping 
that variation in mind, I would identify the following motivations 
behind the insurgency. One is broad dissatisfaction with the 
performance and integrity of the central government. A second is 
opposition to foreign occupation, which is now focused primarily 
against NATO and especially U.S. forces. A third, which applies less 
broadly than the first two and most of all to the Taliban leadership, 
is a religiously based ambition to establish a social and political 
order rigidly based on an extreme interpretation of sharia or Islamic 
law. Other motivations, including ones as simple as needing some cause 
or vocation in the absence of gainful alternative employment, also 
drive the involvement of many fighters in what we loosely label as the 
Taliban.
    Ideas and ideologies certainly play a part in successful 
counterinsurgencies. This does not mean, however, that there is any 
effective way for the United States and its allies to address religion 
in the conflict in Afghanistan. Those insurgents who are religiously 
motivated--and this mainly involves a hard core of Taliban leaders--are 
not about to be dissuaded from their course of action through any 
religious discourse, and certainly not any with westerners. The 
principal idea that would help to undermine the appeal of the Taliban 
is a reminder of how ruthless and draconian has been their rule when 
they have had a chance to exert rule over parts of Afghanistan.

                                  <all>

</pre></body></html>
